<html>
<title> - THE SEMIANNUAL TESTIMONY ON THE FEDERAL RESERVE'S SUPERVISION AND REGULATION OF THE FINANCIAL SYSTEM</title>
<body><pre>[Senate Hearing 115-408]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-408


   THE SEMIANNUAL TESTIMONY ON THE FEDERAL RESERVE'S SUPERVISION AND 
                   REGULATION OF THE FINANCIAL SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE EFFORTS, ACTIVITIES, OBJECTIVES, AND PLANS OF THE FEDERAL 
RESERVE BOARD WITH RESPECT TO THE CONDUCT, SUPERVISION, AND REGULATION 
       OF FINANCIAL FIRMS SUPERVISED BY THE FEDERAL RESERVE BOARD

                               __________

                           NOVEMBER 15, 2018
                               __________



  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                Available at: https: //www.govinfo.gov/

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
33-484 PDF                WASHINGTON : 2019                 




















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  DOUG JONES, Alabama

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

                      Joe Carapiet, Chief Counsel

                Brandon Beall, Professional Staff Member

            Laura Swanson, Democratic Deputy Staff Director

                 Elisha Tuku, Democratic Chief Counsel

          Amanda Fischer, Democratic Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Cameron Ricker, Deputy Clerk

                     James Guiliano, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)




























                            C O N T E N T S

                              ----------                              

                      THURSDAY, NOVEMBER 15, 2018

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    21

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2
        Prepared statement.......................................    22

                                WITNESS

Randal K. Quarles, Vice Chairman for Supervision, Board of 
  Governors of the Federal Reserve System........................     4
    Prepared statement...........................................    23
    Responses to written questions of:
        Senator Brown............................................    70
        Senator Toomey...........................................    74
        Senator Cotton...........................................    76
        Senator Rounds...........................................    77
        Senator Tillis...........................................    82
        Senator Warren...........................................    84
        Senator Cortez Masto.....................................    89

                                 (iii)

 
   THE SEMIANNUAL TESTIMONY ON THE FEDERAL RESERVE'S SUPERVISION AND 
                   REGULATION OF THE FINANCIAL SYSTEM

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2018

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:01 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. The Committee will come to order.
    Today we will receive testimony from Federal Reserve Vice 
Chairman for Supervision Randy Quarles regarding the efforts, 
activities, objectives, and plans of the Federal Reserve Board 
with respect to the conduct, supervision, and regulation of 
financial firms supervised by the Federal Reserve Board.
    We last heard from Vice Chairman Quarles in October on the 
Fed's progress implementing S. 2155, the Economic Growth, 
Regulatory Relief, and Consumer Protection Act.
    At that time the Fed had taken actions to implement some 
provisions of S. 2155, including those related to the 18-month 
exam cycle, high-volatility commercial real estate, and the 
Small Bank Holding Company Policy Statement.
    Since then, the Fed has taken new steps to implement key 
provisions of the bill.
    Recently, the Fed issued proposals revising the application 
of enhanced prudential standards across four categories of 
firms to reflect each category's varying risks. These proposals 
are a step in the right direction, and I appreciate the Fed's 
work to issue them quickly.
    I understand the amount of staff work that went into 
getting the proposals out, and thank you and your staff for 
your work on these proposals.
    The proposals would assign banking organizations to one of 
four categories based on their size and other risk-based 
indicators, including cross-jurisdictional activity; nonbank 
assets; short-term wholesale funding; off-balance-sheet 
exposures; and status as a U.S. global systemically important 
bank, or a U.S. G-SIB.
    The category to which an institution is assigned would 
determine the enhanced prudential standards and capital and 
liquidity requirements to which it would be subject.
    I look forward to hearing how the application of certain 
enhanced prudential standards would address the risks 
associated with cross-jurisdictional activity, nonbank assets, 
short-term wholesale funding, and off-balance-sheet exposures.
    The proposal incorporates a number of very positive changes 
to the current framework for regional banks, including relief 
from advanced approaches capital requirements; a reduced 
liquidity coverage ratio; changes to the frequency of 
supervisory and company-run stress testing, and, in some cases, 
the disclosure of the results.
    Despite this positive step, the agencies have left a number 
of items unaddressed, including the treatment of foreign 
banking organizations; additional details on stress testing, 
including the Fed's Comprehensive Capital Analysis and Review, 
or CCAR; and resolution planning.
    I encourage the regulators to revisit all regulation and 
guidance thresholds that were consistent with the outdated 
Section 165 threshold to an amount that reflects actual 
systemic risk.
    Regulators have two options: use a systemic risk factors-
based approach, or raise all thresholds to at least $250 
billion in total assets to be consistent with S. 2155.
    There are also other noteworthy provisions of the bill on 
which the Fed, working with other regulators, has yet to act, 
including implementation of the Community Bank Leverage Ratio 
and the provision that exempted cash deposits placed at central 
banks by custody banks from the supplemental leverage ratio. 
The Fed should work promptly to issue proposals to address 
these critical outstanding issues.
    I was encouraged by Vice Chairman Quarles' speech last 
week, particularly the emphasis on providing more transparency 
around stress testing and capital planning processes.
    Finally, last week all Republican Members of the Banking 
Committee sent a letter to the FDIC on Operation Choke Point.
    Operation Choke Point is an initiative in which Federal 
agencies devised and relied upon a list of politically 
disfavored merchant categories with the intent of ``choking 
off'' these merchants' access to payment systems and banking 
services.
    Staff at the banking agencies use verbal recommendations to 
encourage banks to stop doing business with disfavored but 
legal businesses.
    I plan to look into how policy is communicated from the 
banking agencies to the regulated institutions more broadly.
    I appreciate Vice Chairman Quarles joining us today to 
discuss developments in the Fed's supervision and regulation 
and look forward to hearing more about the Fed's pending work 
to implement Senate bill 2155.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman, and thanks to Vice 
Quarles for joining us. Good to see you again.
    The Fed's responsibility and Vice Chairman Quarles' job is, 
as we know, to ensure that the economy works for average 
Americans--that if you work hard, you can get ahead; that Wall 
Street does not again crash the financial system and squander 
the pensions that families worked their whole lives to earn; 
and that banks cannot cheat workers out of their hard-earned 
savings; and that executives are held accountable when they 
break the law.
    We know the Fed failed in its mission 10 years ago. The Fed 
had all the power it needed to prevent the crash. Its leaders 
in Washington were too complacent and too cozy with Wall Street 
to use their authority to rein in the largest banks and to 
protect American taxpayers.
    That is why immediately after the crash, we put in place 
rules to strengthen taxpayer protections from big bank risk and 
to protect consumers from predatory practices.
    The rules worked. Our system got safer, and the rules have 
not stopped banks from becoming more profitable than ever, as 
we see. The Fed released a report on Friday showing that two 
important measures of banks' profitability--return on equity 
and average return on assets--hit a 10-year high in the second 
quarter of 2018. They have reported a 30-percent growth in loan 
volume since 2013, while experiencing a 10-year low in the 
share of loans that are not performing.
    But now, with legislation enacted earlier this year and the 
actions of this Administration, we are witnessing--piece by 
piece by piece--the dismantling of these protections for 
American workers and an undermining of the dignity of work.
    Since the last time Mr. Quarles testified before this 
Committee, we have two new developments that underscore this 
point.
    First, the Fed's proposal to implement the bank giveaway 
bill, S. 2155, goes far beyond what the authors of that 
legislation claimed the bill would do. The Fed's proposed rule 
loosens protections for banks with more than $250 billion in 
assets--not small community banks, the way the bill was sold. 
We are talking about the Nation's biggest financial 
institutions. Combined, these firms hold $1.5 trillion in 
assets.
    The Fed's proposal also promises more goodies for the big 
banks, with rollbacks for large foreign banks expected in the 
next few months. This is despite the fact that the Fed's own 
progress report said that foreign banks continue to violate 
anti- money-laundering laws and skirt Dodd-Frank requirements. 
No need today to go down that list of foreign banks. We all 
know who they are. We have talked about them in this Committee. 
Senator Cortez Masto has brought it up. I have brought it up. A 
number have brought it up. Yet we are saying to these foreign 
banks we sort of ignore the illegal things they do and continue 
to deregulate them.
    Vice Chair Quarles gave a speech last week announcing the 
Fed's plans for the very largest domestic banks--a speech, 
frankly, that could have easily been written by one of those 
banks' lobbyists.
    Mr. Quarles wants to weaken capital requirements for the 
megabanks, eliminating any leverage capital standards in stress 
tests. We got a preview of what this would look like in June 
when the Fed gave passing grades to three banks that had 
clearly failed their stress tests. Now Mr. Quarles wants to 
make this year's giveaway permanent.
    The speech outlined a series of other changes to the Fed's 
stress tests that would render them essentially meaningless. 
Mr. Quarles makes no secret of the fact he wants to ease up on 
the assumptions that guide the tests, wants to eliminate 
portions of the tests, and wants to share with the banks the 
Fed's internal models against which they are graded--you know, 
giving students the answers ahead of time.
    These changes, taken alongside the weakening of the Volcker 
Rule, other big bank leverage standards, and an abandonment of 
nonbank financial oversight, these changes amount to gutting 
the postcrisis protections we put in place that have worked 
marvelously for about a decade to protect American taxpayers 
future bailouts. Again, repeat, the banks are doing very, very, 
very well with these rules and regulations in terms of 
profitability and return, all of those things. So why do we 
think weakening those rules makes sense?
    It is not just I who says this. Stanley Fischer, the former 
Vice Chair of the Fed, called these combined rollbacks ``mind 
boggling'' and ``very dangerous.''
    When regulators have not finished implementing Dodd-Frank, 
when the economy has not even gone through a full economic 
cycle, now is not the time to begin dismantling our postcrisis 
protections. It is the same story: Wall Street recovers, 
working families in Cleveland and Baltimore and Birmingham and 
Las Vegas do not. When Washington policymakers suffer from 
collective amnesia, as this Committee does, working families 
and savers and taxpayers too often end up paying the price.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Brown.
    Again, Vice Chairman Quarles, we appreciate you being with 
us. You may now make your statement.

STATEMENT OF RANDAL K. QUARLES, VICE CHAIRMAN FOR SUPERVISION, 
        BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

    Mr. Quarles. Thank you. Thank you, Chairman Crapo, Ranking 
Member Brown, Members of the Committee. I am grateful for the 
opportunity to testify on the Federal Reserve's regulation and 
supervision of the financial system.
    My prepared remarks address two main topics: our efforts to 
improve regulatory transparency and our progress in making the 
postcrisis regulatory framework simpler and more efficient. I 
am mindful that this semiannual testimony, like my position as 
Vice Chairman for Supervision, is grounded in Congress' efforts 
to strengthen and improve the Nation's regulatory framework 
following the financial crisis, and this testimony reflects a 
critical element of those efforts: the desire and the need for 
greater transparency.
    Transparency is part of the foundation of public 
accountability, and it is a cornerstone of due process. It is 
also key to a well-functioning regulatory system and an 
essential aspect of safety and soundness as well as financial 
stability. Transparency provides firms clarity on the letter 
and spirit of their obligations. It provides supervisors with 
exposure to a diversity of perspectives. And it provides 
markets with insight into the condition of regulated firms, 
which fosters market discipline. Transparency increases public 
confidence in the role of the financial system to support 
credit, investment, and economic growth.
    The Federal Reserve has taken a number of steps since my 
last testimony to further increase transparency and to provide 
more information about our supervisory activities to both 
regulated institutions and the public. We recently improved our 
supervisory ratings system for the large financial 
institutions, better aligning ratings with the supervisory 
feedback that those firms receive. With our fellow banking 
agencies, we clarified that supervisory guidance is a tool to 
enhance the transparency of supervisory expectations and should 
never be the basis of an enforcement action. And we expect 
shortly to make final a set of measures to increase visibility 
into the Board's supervisory stress testing program, including 
more granular descriptions of our models, more information 
about the design of our scenarios, and more detail about the 
outcomes we project.
    The report that accompanies my testimony today and that 
Ranking Member Brown referred to is another tool to keep 
Congress and the public informed about our work, the banking 
system, and the role of both in supporting the broader economy. 
As the report shows and as my written testimony discusses, the 
banking sector remains in strong condition, in line with strong 
U.S. economic performance, with lending growth, fewer 
nonperforming loans, and strong overall profitability.
    We are, however, very much aware of the dangers of 
complacency, and our report lists several priority areas of 
risk we will continue to monitor closely, including cyber and 
IT risks at supervised firms of all sizes.
    Improving regulatory efficiency is another core element of 
our current efforts. Tailoring regulation and supervision to 
risk has been a programmatic goal of the Federal Reserve for 
more than two decades. The motivations are clear: supervisory 
resources are not limitless; supervision is not costless, 
either to the public or to supervised institutions. Activities 
and firms that pose the greatest risk should receive the most 
scrutiny, and where the risk is lower, the regulatory burden 
should be lower as well.
    This principle guided Congress and the agencies in 
designing the postcrisis regulatory framework, and it has 
guided our implementation of the Economic Growth, Regulatory 
Relief, and Consumer Protection Act. On this front, as my 
written testimony details, we have made substantial progress.
    Our most significant step came 2 weeks ago when the Board 
issued two proposals to better align prudential standards with 
the risk profile of regulated institutions. These proposals 
would significantly reduce regulatory compliance requirements 
for firms in the lowest risk category, including most 
institutions with between $100 billion and $250 billion in 
assets. Firms with $250 billion or more in assets or firms 
between $100 billion and $250 billion that meet a risk 
threshold will face reduced liquidity requirements. The 
proposals would largely maintain existing requirements for the 
largest and most complex firms.
    These new categories draw on our experience administering 
enhanced prudential requirements and other postcrisis measures, 
and they move toward a more risk-sensitive, nuanced framework, 
where riskier activities and a larger systemic footprint 
correspond to higher supervisory and regulatory requirements.
    I have detailed several other efforts to improve regulatory 
efficiency in my written testimony, including simplifying and 
tailoring requirements under the Volcker Rule.
    Our work to improve regulatory efficiency is not done, and 
we expect to make additional progress in the months ahead on a 
number of issues. In particular, we are working with our 
counterparts at the OCC and FDIC on a community bank leverage 
ratio proposal. I look forward to making progress on that and 
other efforts and to participating in the Committee's oversight 
of our work.
    Thank you, and I look forward to answering your questions.
    Chairman Crapo. Again, thank you, Mr. Quarles.
    My first question is really just one on timing for what is 
coming next. I do appreciate the work the staff has gone 
through, truly. I know the amount of work it has taken for you 
to move as expeditiously as you have. I am concerned, however, 
that it is difficult to get a full picture of what the 
supervisory and regulatory landscape will look like until other 
proposals on foreign banks, resolution planning and capital 
planning, and stress testing are out. And I encourage you to 
keep the heat on to move quickly and would appreciate any 
updates you might have on timing.
    Mr. Quarles. Certainly, Mr. Chairman. So as I indicated, 
our implementing proposal which we are working on jointly with 
the OCC and the FDIC on the community bank leverage ratio 
proposal we expect very soon. And, again, I hope that the speed 
with which we put forward the main implementing proposal 
indicates that very soon really will be very soon.
    Shortly following after that, I think we will have 
proposals for modernizing or bringing up to date the resolution 
framework and foreign banking organizations, tailoring for 
foreign banking organizations. I view the tailoring for foreign 
banking organizations as a somewhat separate question from 
implementation of S. 2155. We have been considering, and 
obviously we need to consider, and will come up with a proposal 
for that. But the domestic operations of foreign banking 
organizations I do not think are one-for-one correspondent with 
domestic firms of the same size because those intermediate 
holding companies, they interact with branches that are subject 
to a different regulatory regime here. They are parts of larger 
organizations.
    So I think there is tailoring that can be done. We need to 
ensure that we have a level playing field, that firms that are 
alike are treated alike. That is very important. But I do think 
it is a separate implementation question than 2155 
implementation.
    Chairman Crapo. All right. Thank you very much.
    Are you familiar with the letter or have you seen the 
letter that the Republican Members of this Committee recently 
sent to the FDIC on Operation Choke Point?
    Mr. Quarles. I have seen that letter, yes.
    Chairman Crapo. And are you familiar with Operation Choke 
Point, what it is?
    Mr. Quarles. I am familiar with what I have read about it, 
yes.
    Chairman Crapo. OK. As I indicated in my opening statement, 
I am very concerned with the lack of accountability in the 
supervisory process. What we are finding is that many of the 
regulators who are verbally giving instructions to those 
regulated that are not actually contained in their authority or 
the law, and that, frankly, financial institutions, 
particularly a lot of our smaller financial institutions, feel 
an incredible pressure from things that are not coming even 
from regulations or guidances, but just from verbal 
communications.
    This raises the question to me of whether those who are 
conducting the supervision throughout our agencies, our 
financial regulatory agencies, are engaging in regulatory 
direction and activity that is not authorized by law or 
regulation.
    My question to you is: What are you doing to make sure that 
staff at the Federal Reserve is accountable to you? And is 
there anything Congress can do to make sure that you have the 
tools necessary to make staff at the agency accountable to you?
    Mr. Quarles. So I appreciate that concern, and I would 
share that concern. Obviously, if there were instances where 
examiners were communicating and requiring banks to take action 
that was not required by regulation and that was not 
transparent to those above them in the hierarchy, you know, 
obviously that would be extremely concerning.
    We have a pretty vigorous training program at the Fed. I 
personally have undertaken as well to spend time in the various 
reserve banks in dealing with the supervisors on the ground, 
conferences of all the supervisory personnel, leadership 
conferences. We are working hard--none of that is terribly 
visible. All that is within the system. But we are working hard 
to ensure that our expectations for supervisory practice as 
well as our regulatory process is very clear to those who are 
on the ground.
    Chairman Crapo. Well, thank you. I appreciate that and I--
well, I appreciate your attention to that. As the letter that 
some of the Members of this Committee recently sent to the 
FDIC, we want to assure that all of our regulatory agencies in 
the financial system follow their own regulations and the law 
of the United States rather than, frankly, social managing 
ideas that they have with regard to which businesses in America 
should be allowed to do business. It is an extremely serious 
concern, and I appreciate your attention to this.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Following your speech, one bank analyst told clients that 
your proposed changes are ``a positive for the biggest banks by 
providing capital and compliance relief. It reinforces our 
deregulatory theme for the banking sector. It shows how 
deregulation can proceed, even with Democrats retaking the 
House of Representatives.''
    Two questions. Do you think this analysis of the Fed's 
actions is accurate? And, second, can you guarantee this 
Committee that when the Fed is done, megabank capital standards 
will not decrease relative to where they are today?
    Mr. Quarles. As I have indicated each time I talk about 
increasing transparency and improving the efficiency of that 
system, including our stress testing proposals, our objective 
is not to have any--certainly no material effect on the 
resiliency of the system and not to have any material effect on 
the loss-absorbing capacity of these largest firms. I think 
that there are things that we can do that improve the 
incentives, that reduce burden, that are more appropriate in a 
democracy about the transparency that is required about 
regulatory expectations without undermining the safety and 
soundness of the system and without, again, in any way reducing 
the loss-absorbing capacity of the system.
    Senator Brown. But does that mean no diminishing of the 
capital standards?
    Mr. Quarles. Capital standards are a very important element 
of that, but I think we also look broadly. So it is not just 
capital standards. It is all the cushions that are built into 
the capital structure.
    Senator Brown. It includes capital standards?
    Mr. Quarles. Capital standards are included in my 
understanding of loss absorbency that we do not intend to 
reduce.
    Senator Brown. So was that analysis of your speech fair and 
accurate?
    Mr. Quarles. I think it did not--I mean, to the extent that 
they believe that there would be material capital reductions 
for the largest firms, I do not think they were--I think they 
ignored the clear statement that I made, that our intention is 
not to----
    Senator Brown. This is a group of people that want those 
standards diminished, and there is, I mean, almost an arrogance 
to it: ``Well, we know the regulators will help us do that even 
though those people in the House of Representatives will not.''
    Mr. Quarles. So I believe that it is--I know from what it 
is that we are proposing that it is possible to have, again, a 
material improvement in the efficiency and reduction in the 
cost of our regulatory system without undermining what is at 
the core of it, which is improved resiliency and strong loss 
absorbency for these firms.
    Senator Brown. You outlined a lot of bold changes in your 
speech. Are you speaking for the whole Fed Board in speeches 
like that?
    Mr. Quarles. In some cases the Fed Board has made decisions 
resolving this. We have come out with proposals. In other 
cases--and I have tried to be clear about this when that was 
the case--I have said what it is that I would place before the 
Board in short order.
    Senator Brown. Thank you. Thanks for your honesty. This is 
short of an admonition, but we have noticed already, even 
though Chair Yellen--and every Chair is different. I get that. 
Chair Yellen wanted unanimity when the Board made decisions, 
and when one of the Board members, the only non- Trump Board 
member, voted the other way, they went ahead. I hope that--I 
said this is short of an admonition, but I hope that you keep 
that in mind, that the best way to do this is consensus. And if 
it means convincing a wayward or two Board member, one or two 
Board members to come around, be patient and try to do that, or 
look elsewhere.
    Mr. Quarles. So we do look for consensus, and certainly 
there is a process on the Board that I think each Board member 
would say has taken every Board member's thoughts into account 
and is open, and adjustments have been made even where at the 
end of the day the Board cannot be unanimous. I do not think 
that unanimity can be the sole measure of legitimacy or the 
whole Dodd-Frank Act would be illegitimate. It was not passed 
unanimously. But we do at the Board have a very robust process 
to ensure that every Board member's voice is heard.
    Senator Brown. I appreciate that, but a regulatory body is 
very different from a politically elected--I mean, you, I 
assume--I think I can assume your political party, but it does 
not matter. You are on the Fed, and regardless of Ms. Brainard 
or Mr. Quarles or anybody else on that Board, political party 
should not really matter.
    One more question. You said the Fed intended to give 
megabanks a cheat sheet for the stress test in the coming 
years, handing over details about the Fed's models, how the Fed 
predicts hypothetical loan performance, even letting banks 
comment on the Fed's scenarios that predict what economic 
shocks may occur over the next year.
    Given the lead-up to the 2008 crisis, why are you so 
confident that banks will not optimize their assets to gain the 
models? Isn't that exactly what banks did to game credit rating 
agency models for mortgage-backed securities?
    Mr. Quarles. So in our transparency proposal, we have tried 
to strike a balance between more transparency, again, which I 
think is appropriate for a number of reasons--again, not just 
due process, but also to improve the quality of our models. The 
more that people understand them, not just the industry but 
academics, Congress, the public, the more input that we can 
receive on how to improve them.
    But as I have said a number of times, I do think that there 
is a concern about the so-called mono model problem, and that 
if we were completely transparent, that whatever idiosyncracies 
there are in our model would become the locuses of risk 
throughout the entire system, and we could end up making the 
system more fragile rather than less. And so we are not being 
completely transparent about our models even in these increased 
transparency proposals that we have made for that reason.
    Senator Brown. Well, and I will close, Mr. Chairman. I 
appreciate the word ``transparency'' used at least six times in 
that answer, and you and I when we had breakfast talked about 
that, and I appreciate that view. But this is more like in some 
ways giving banks the teacher's edition of the textbook with 
the answers listed out in the back when you call giving them 
that transparency. We all want transparency in your 
deliberations, and I think the Fed has made progress under--
really under Bernanke and Yellen and now. But I just caution 
you with the word ``transparency'' when it is giving 
information to the people that you are stress testing.
    Thank you, Mr. Chairman.
    Chairman Crapo. Senator Corker.
    Senator Corker. Thank you. We welcome you here, and while I 
have enjoyed working with all of those who have held your 
position, it is good to have someone who is actually confirmed 
and in this role in the appropriate manner.
    I know there are going to be comments based on my staff 
input earlier today relative to some of the tailoring issues 
and some concerns and people alluding to bank profits. But when 
we have tried to do safety and soundness, put in place safety 
and soundness regulations for institutions--and I think many of 
us here strongly support higher capital levels to make sure 
that they are safe and sound. But we really do not look at 
trying to manage bank profits when we do that, do we?
    Mr. Quarles. No.
    Senator Corker. Talk to us a little bit about what you 
think about when you go through those processes.
    Mr. Quarles. So I think that we have two principal concerns 
as regulators. We have a concern for the safety and soundness 
of individual institutions, and we have a concern for the 
safety and soundness of the system as a whole and for the 
efficiency of the system as a whole because all of us as 
citizens benefit from the efficiency of the financial sector. 
That is what provides the support for economic growth, provides 
credit for small businesses and businesses generally.
    So really irrespective of bank profitability, our concern 
is that that system should be operating as efficiently as 
possible and that our regulation of that system, while 
achieving the objective of safety and soundness, is doing so in 
the most efficient way practicable, because when we do that, we 
support economic growth that benefits us all.
    Senator Corker. I notice the FDIC appropriately is moving 
down the path of making sure they have a rulemaking in place 
relative to private flood insurance, and I think many of us 
here would like to see steps taken to ensure that institutions 
are accepting private flood insurance. What is the status of 
that right now at the Fed?
    Mr. Quarles. So we share the view that private flood 
insurance should be acceptable, and we are working to ensure 
that that is understood throughout our supervisory system, so 
as a supervisory matter that private flood insurance will be 
acceptable.
    Senator Corker. So we look forward to you moving ahead with 
that, and hopefully that will happen very soon.
    The GSEs have been something of debate here since 2008, 
unsuccessfully. I know that the new Congress likely will take 
up legislation. My sense is the Administration potentially will 
try to lead on that issue by putting in place some things they 
can do on their own accord and then coming back and talking 
with Congress about things that are necessary to fully 
implement reforms as it relates to Fannie and Freddie. 
Currently they are in conservatorship, as you know.
    I am just curious. Some people on this Committee may 
disagree with the whole creation of FSOC. Some people I think 
would have thought maybe the Fed's responsibility was that. But 
we do have FSOC, and we do have some firms that are designated 
as systemically important.
    I am just interested in why the Fed and why FSOC has not 
chosen to say that Fannie and Freddie themselves, with such a 
huge concentration and such importance systemically to the 
banking system itself, have not even during conservatorship 
chosen to designate them as systemically important.
    Mr. Quarles. Well, ultimately that is a question for the 
FSOC as a whole as opposed to just the Federal Reserve.
    Senator Corker. Would you all push for that, though? You 
have a very strong voice in that.
    Mr. Quarles. I think that the right--myself, I think that 
the right answer for the GSEs is to have a comprehensive 
solution, and FSOC designation in the context of that, I think 
it needs to be thought of as what is a comprehensive solution 
for these institutions. And so I would not want to do anything 
piecemeal until it was clearer what the whole solution is going 
to be. I know that the Treasury and the FHFA are both working 
hard on that, and I think as we see how that evolves----
    Senator Corker. So you look at designating someone with $3 
trillion in assets as part of a reform solution, not something 
that you deem to be important as it relates to systemic risk? 
That is an odd response, just for what it is worth.
    Mr. Quarles. Well, again, I think that everything that 
involves----
    Senator Corker. Just for what it is worth, you know, I 
support you and I appreciate your being here. It feels like the 
Fed is taking a political look at this and not wanting 
themselves to be entangled in versus pushing for the fact that 
these institutions, if they ever survive conservatorship, 
certainly would need to have capital and all of those kinds of 
things. And it feels like you all are kind of dodging a 
political issue to keep yourselves from being maybe wounded by 
taking a step that is appropriate. Is that kind of where the 
Fed is today?
    Mr. Quarles. I certainly would not characterize it that 
way. I think it is that we are in early days of what ultimately 
is a very complex problem and a difficult solution, and I think 
we should not approach that solution piecemeal, but should look 
at what is a comprehensive answer.
    Senator Corker. So yes or no, are they systemically 
important?
    Mr. Quarles. Well, I think it is unarguable that those 
institutions have systemic consequence. The question is: What 
is the right response to that?
    Senator Corker. So they are systemically important. Thank 
you.
    Chairman Crapo. Senator Jones.
    Senator Jones. Thank you, Mr. Chairman. And thank you, Mr. 
Quarles, for being here.
    I would like to ask you a little bit about something that I 
am hearing more and more about in Alabama, and that is the 
current expected credit loss accounting standard, CECL, that 
has come in. As someone who tries to run away anytime people 
start talking numbers and accounting, I really appreciate what 
FASB has been doing, so I am not making any judgment here. But 
I am concerned in what I hear from our banks a little bit, the 
concern about unintentional consequences that may impact the 
ability of banks to make long-term loans, whether small 
business loans or residential loans. And I think and my 
recollection is that in recent comments at Brookings, you 
stated that you believe that there was some agreement that CECL 
was going to be procyclical, but that these issues could be 
addressed as you phased in those rules.
    Can you just expand on those comments a little bit and what 
you are looking at to try to make sure that we do not have 
those unintended consequences and making sure particularly 
smaller banks are protected?
    Mr. Quarles. Certainly. So I agree with you that there is a 
lot that we still do not know about how CECL will really 
operate in practice and what the effect will be on banks of any 
size, but particularly smaller banks. And that is why we had 
proposed that we will have a 3-year phase-in period, at least a 
3-year phase-in period, so that we can understand before 
phasing the CECL results into our capital calculations, exactly 
what those effects are really in operation.
    We have gotten a lot of different estimates ex ante as to 
what the consequence will be of CECL. Will there be an 
immediate increase in reserves on day one? Is the real issue 
with CECL or the real consequence of CECL that there will be 
procyclicality in the event of stress? And if there is 
procyclicality in the event of stress, does that affect banks 
that are covered by our stress tests? And how does CECL work 
there? And it really is too early to say and I do not think we 
have enough data to know exactly what those consequences are 
going to be, the day one consequences versus the ongoing 
consequences and the stress consequences.
    So we are going to be looking at all of that on the basis 
of the real operation of CECL when it is in effect by delaying 
our implementation of including it in our capital----
    Senator Jones. All right. And I assume you will be taking 
the comments.
    Mr. Quarles. Absolutely.
    Senator Jones. I mean, that phase-in is going to give you 
the opportunity to tweak, to go back and get comments from the 
banks and how it is going to be----
    Mr. Quarles. We will be looking for input from all sources 
on that.
    Senator Jones. All right. Perfect. Thank you for that.
    And so the other thing is the Community Reinvestment Act. I 
think that is going to be one of the most important items that 
banking regulators take up this year. I have spoken to the OCC 
about this. You know, if we get it right, it is going to be 
really important to modernize the CRA. But if we get it wrong 
and go in the wrong direction, I am concerned still--and I want 
to make sure that this is being addressed--that we are not 
having different regulators addressing the CRA in different 
ways.
    So can you give me an update about the Fed's role working 
with the OCC about trying to modernize the Community 
Reinvestment Act?
    Mr. Quarles. Certainly. So we have worked with the OCC. The 
OCC has put out an Advance Notice of Proposed Rulemaking, and 
we had extensive discussions, all the banking agencies had 
extensive discussions together before the OCC went out with 
that ANPR. We will all be looking at the information that comes 
in as a consequence of that process. We are having a very 
athletic outreach process at the Federal Reserve on questions 
about the CRA. I think we have got 20 different seminars and 
events that are set up throughout the system, throughout our 
various reserve banks, looking for input on that. And I expect 
that, moving forward, our expectation is that we will have a 
joint NPR, Notice of Proposed Rulemaking, at the end of this 
outreach process that will reflect all the information that we 
receive.
    Senator Jones. Great. Thank you.
    Finally, just a couple of comments. Number one, I know that 
the Fed is part of a working group dealing with anti- money-
laundering issues that I know this Committee is likely to take 
up this year. I have been hearing that law enforcement may not 
be as included on that. I know you have got some. But as a 
former U.S. Attorney, I would just encourage that working group 
to bring in the FBI or other Treasury criminal officials, 
because there is nothing like boots on the ground to really do 
that, and I would just encourage you to include some boots-on-
the-ground law enforcement as part of that working group.
    And the final thing I just want to say is I want to tell 
you that I appreciate very much you and your fellow Fed Board 
Governors for maintaining your independence during a time of 
recent criticism. I think the independence of the Federal 
Reserve is truly a core bedrock of our economy and our 
democracy here on both monetary and regulatory policy. It is 
critical that you maintain that independence, so thank you for 
that. And I want to tell you that for as many of us here that 
we can, we will do what we can to preserve that independence 
for you. So thank you.
    Mr. Quarles. Thank you, Senator.
    Chairman Crapo. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Vice Chair Quarles, first of all, thanks for being here. 
Before I get into the questions that I have got for you, I 
would like to make one real quick comment. I would like to echo 
the remarks made yesterday by my colleague from the House 
Financial Services Committee, Congressman Ted Budd, regarding 
the insurance regulation. I agree with Congressman Budd that 
the Fed and other American regulators should stand up for 
State-based insurance regulation and fight overreach from the 
international regulators like the IAIS, and hopefully you folks 
will stand strong on that.
    Let me also just jump into where my questions would begin. 
As we conclude the 115th Congress, Americans have a lot of 
things to be thankful for. The postcrisis economic expansion 
has continued for a near record 97 months. Tax reform and the 
Trump administration's deregulatory efforts have pushed GDP 
growth to 4 percent. Unemployment remains at a low of 3.7 
percent. These are all positive developments. Yet I remain very 
concerned about a number of troubling economic signals from 
back home in South Dakota with our strong reliance on an ag 
economy--not just South Dakota, but North Dakota, Minnesota, 
Nebraska, Iowa, the Upper Midwest.
    More specifically, our country's ongoing trade disputes are 
causing significant economic problems for my State's ag 
economy. As an example, the retaliatory tariffs from China on 
American soybeans have caused soybean sales to China to plummet 
by 94 percent compared to last year's harvest.
    Now, while the Federal Government's financial assistance 
has helped to offset some of these losses, the subsidy for each 
bushel of soybeans in some cases covers less than half of the 
actual loss that farmers are facing, and it is the producers 
that are really taking the brunt. They are on the tip of the 
spear in this trade dispute.
    The impact, I cannot overemphasize how critical this trade 
impact is to the economic well-being of farmers in the Upper 
Midwest. In South Dakota, the farm economy is down for 5 years 
in a row. We are down 50 percent in net farm income, and this 
is not helping at this point. And while we see some relief 
coming, there is going to be a time--just as an example, 
soybeans down by 94 percent sales to China, some people say, 
``Big deal.'' China buys 60 percent--of all those that are 
exported, 60 percent of it goes to China. It is close to 30 
percent of the entire soybean market. And so this is a real 
impact to farmers in the Upper Midwest.
    Some of these folks, after 5 years of low commodity prices, 
will be coming in to ask for operating loans. The banks in the 
Upper Midwest, those who have survived year in and year out, 
have over the past understood at the local level that every 
year is not going to be a profitable year for an ag operator. 
And most of those smaller banks that do that expect that some 
years they are going to have to look at something and say, 
``You may not have performed well last year or commodity prices 
are down, but we understand long term this is going to be a 
profitable program for our bank, and if you do not survive, we 
do not survive either.''
    I am hopeful and what I am asking for is some reassurance 
from the Federal Reserve that the Fed and the FDIC, the 
regulators and the folks who are going to come in and actually 
audit the banks will have an understanding that this short-term 
trouble we are in right now is not going to cost these banks to 
be identifying these ag operators as nonperforming loans if 
they come back in looking for assistance to get by this tough 
time period in which they are on that tip of the spear in this 
trade dispute.
    Could you comment on that, please?
    Mr. Quarles. Certainly. I think one of the strengths of our 
supervisory system is that we have people on the ground with 
experience both with individual institutions and different 
categories of institutions and a history of understanding how 
different markets work, and all of that should be brought to 
bear as they make their individual supervisory decisions.
    Senator Rounds. I am going to go one step farther because I 
think this is really important. In the previous Administration, 
there were times in which at the upper echelons there was an 
attempt to get more money out into the economy, and yet at the 
lower echelons, where the actual audits were being done, there 
was a disconnect in that it was very difficult to get the money 
into the ag economy because in some cases specific sections of 
the ag economy were identified as nonperforming sectors, and 
even loans that had been repaid on time were still being 
identified as nonperforming assets.
    I just want to hear once again a reassurance that there is 
some sort of a message out there that says that the ag economy 
is going through a tough time; we understand that there can be 
exceptions made, and that we are not going to be punishing the 
banks for trying to get these folks through a tough time. And 
that has got to come from the top down so that the folks on the 
front line who are doing the audits, making the reviews of the 
banks, have some understanding about what the banks are trying 
to do to make sure these producers survive and actually 
continue to help make those banks a profit in the future.
    Mr. Quarles. So I can absolutely commit to you that I take 
the supervision part of this job as important as the regulatory 
part of this job. For what it is worth, as I think you know, I 
come from an agricultural background myself and understand the 
issues that you are talking about, very much so, and will be 
engaging with the supervisors to ensure that they take 
reasonable decisions.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Brown [presiding]. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman. It is good to see 
you again, Governor Quarles.
    I want to follow up on a letter I sent yesterday to the Fed 
and to several other Federal regulators. In it I raised 
concerns about the rapid growth of leveraged corporate lending, 
that is, lending to companies that already have a lot of debt.
    There was a record $1.1 trillion in leveraged loans in the 
U.S. last year, nearly double what it was just a few years ago. 
In the last few weeks, former Fed officials have raised serious 
concerns about the growth of leveraged lending. Former Fed 
Governor Dan Tarullo called for more oversight and transparency 
because of the risks these loans pose to the economy, and 
former Fed Chair Yellen said she is ``worried about the 
systemic risks associated with these loans.''
    So do you agree with former Fed Chair Yellen and Governor 
Tarullo that this is a concern?
    Mr. Quarles. Well, I agree that the framework that they are 
talking about it in, the systemic risk is what it is that we 
ought to be looking at and ensuring that we understand how 
systemic risk is evolving as opposed to simply the volume of 
leveraged lending. I think that is the right way to look at it.
    Senator Warren. OK. I understand you think it is the right 
way to look at it. Are you concerned about it, the amount? That 
is the question.
    Mr. Quarles. Yeah, again, I think the question is what are 
the structures that these loans are being held in. The amount 
itself is not what is critical. What is critical is, you know, 
are they being held in vulnerable structures? Do we understand 
how the system is evolving? And that is something that we are 
looking at very closely.
    Senator Warren. All I can say, even your fellow Trump 
appointee, OCC head Joe Otting, said recently that ``there is 
probably a bit more leverage in this market than we as a 
country should be comfortable with.''
    So I tell you what, let me move on. In 2013, under the 
Obama administration, the Fed, the OCC, and the FDIC were 
worried about leveraged lending, so they issued joint guidance, 
and that guidance provided risk management and underwriting 
expectations for the leveraged commercial loans, and then they 
enforced it. The next year a dozen banks received notices that 
they were not following the guidance, and the Fed issued a 
supervisory finding that directed Credit Suisse to abide by the 
guidelines.
    But things have shifted in the Trump administration. 
Earlier this year, Comptroller Otting said he did not care if 
the banks under his supervision violated the guidelines if it 
did not affect their overall safety and soundness. Is that your 
position as well?
    Mr. Quarles. Well, our position with respect to leveraged 
lending supervision is that we are actually quite athletically 
looking at that. That is something----
    Senator Warren. OK, so that is not your position. You are 
enforcing the guidelines.
    Mr. Quarles. Well, guidance is guidance. Guidance is 
intended to provide transparency, but it is not something that 
can be enforceable. It is not a rule. So what we are enforcing 
are----
    Senator Warren. I am sorry. The Fed directed Credit Suisse 
to abide by the guidelines back in 2014, so you cannot say 
there is nothing you can do. The Fed has done it.
    Mr. Quarles. To enforce guidance is inappropriate. That is 
not something that can be done.
    Senator Warren. Well, it directed them to follow the 
guidance. I mean, I do not want to split hairs with you. I am 
just asking a question. Are you still holding them to the 
guidance or not?
    Mr. Quarles. We are holding them to standards of safety and 
soundness, and I think that is an important distinction, 
Senator. We are not in any way abrogating or not looking at 
leveraged lending. That is an important part of our 
supervision.
    Senator Warren. Are you monitoring compliance with the 2013 
guidelines?
    Mr. Quarles. We are monitoring compliance with safety and 
soundness.
    Senator Warren. Is that a no on the 2013 guideline?
    Mr. Quarles. The guidance is intended to provide 
transparency as to what it is that we will look at.
    Senator Warren. Are you monitoring compliance with that?
    Mr. Quarles. We should not monitor compliance with 
guidance. We should monitor compliance----
    Senator Warren. I take that as a no, then.
    Mr. Quarles. ----with safety and soundness.
    Senator Warren. I will take that as a no. There have been 
reports of banks offering loans that plainly violate the 2013 
guidelines, so it is clear to me that at least the market does 
not think you are monitoring these. What concerns me, Governor 
Quarles, is this market looks a lot like the subprime mortgage 
market looked pre-2008. The loans are badly underwritten with 
minimal protections. Like subprime mortgages, these loans are 
being packaged up and sold to investors as collateralized loan 
obligations, or CLOs, which spread the risk throughout the 
system and take the lender off the hook for originating a bad 
loan. And these loans have adjustable rates, which means that 
if interest rates continue to go up, companies will owe more 
money just at the moment when the overall economy may be 
slowing down.
    Now, the Fed dropped the ball before the 2008 crisis by 
ignoring the risks in the subprime mortgage market. What are 
you doing differently this time in coordination with other 
Federal regulators so that you are limiting the risk that 
leveraged loans cause serious harm to the financial system?
    Mr. Quarles. So we are--as I said, it is an important theme 
of our supervision and monitoring--this cycle is monitoring the 
underwriting standard for leveraged loans. We will be looking 
at that carefully in this supervisory cycle. We are also 
monitoring carefully how the CLO ecosystem is evolving to make 
sure that we understand where risks are evolving there.
    Senator Warren. OK. I am not sure that I see much 
distinction between what you are doing now and the Fed was 
doing pre-2008, and I think that is deeply worrisome. I have 
sent a letter, asked more questions in that letter. I hope I 
will be able to get a response soon to that. I am very 
concerned that the Fed dropped the ball before and may be 
dropping it one more time on this.
    Thank you.
    Chairman Crapo [presiding]. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Good morning, Mr. 
Vice Chairman.
    Can you tell me what exposure, if any, the American banking 
system has to any instability in Italy, including but not 
limited to its banking system?
    Mr. Quarles. So the exposure of our banking system to 
Italian banks is--the direct exposure is relatively modest. We 
do not think that there is a particular issue there. Obviously 
it is a single financial sector. There are parts of the 
European financial sector that are exposed to Italy, and we 
continue to monitor whether developments there could have 
feedback effects into the United States. We are not--we do not 
view cause for particular concern there at the moment.
    Senator Kennedy. OK. What is a short form call report?
    Mr. Quarles. The intention of the short form call report is 
to be a form that has less burden on the institutions that fill 
it out, requires less cost and time, but still provides us all 
the information that we need to ensure that institutions that 
are less risky are safe and sound appropriate to the riskiness.
    Senator Kennedy. And I believe that Congress and, for lack 
of a better expression, our Dodd-Frank reform bill directed you 
to come up with a short form call report for banks $5 billion 
or less that would be less onerous. Is that right?
    Mr. Quarles. That is correct.
    Senator Kennedy. Why haven't you done that?
    Mr. Quarles. I know that we are in the process of 
implementing that. I think that----
    Senator Kennedy. You promulgated a rule. It is going to 
save the average bank a grand total of 1.18 hours a quarter. 
The stuff that you are cutting out is the stuff that most small 
banks always put zero on. You are not doing anything. I mean, I 
would like you to get in another lick and let us try to be 
serious about it.
    Refresh my memory what banks $5 billion or less did wrong 
in 2008.
    Mr. Quarles. Well, overconcentration in commercial real 
estate, but we do not believe that they are----
    Senator Kennedy. But did they cause--they did not cause the 
meltdown.
    Mr. Quarles. We do not believe that they are likely to have 
systemic----
    Senator Kennedy. Right, but we punished the hell out of 
them in Dodd-Frank. OK?
    Mr. Quarles. Yeah, I do believe that it was--that the 
regulatory burden on the smaller banks was too much.
    Senator Kennedy. I wish you would take another look at your 
promulgated rule. I think it is all hat and no cattle.
    Mr. Quarles. I appreciate that, and I will go back and look 
at it.
    Senator Kennedy. OK. Tell me, Mr. Vice Chairman--and I 
really do appreciate the job that you are doing. Tell me what a 
community bank leverage ratio is.
    Mr. Quarles. So that is a proposal that we are working on 
with the other regulators to develop standards that a community 
bank that has a certain leverage ratio and other standards 
would be subject to simplified, much simplified regulation.
    Senator Kennedy. OK. Would it be fair to say that it would 
mean that a community bank which has a lot of capital, a lot of 
cushion, particularly with respect to or in comparison with the 
larger systemically important banks, would get less 
supervision?
    Mr. Quarles. Well, I----
    Senator Kennedy. Well, not less supervision.
    Mr. Quarles. Exactly.
    Senator Kennedy. Less paperwork.
    Mr. Quarles. Less paperwork, absolutely. Absolutely.
    Senator Kennedy. OK. Have you promulgated a rule?
    Mr. Quarles. We have not promulgated a rule yet, but that 
is one that I expect very soon, and very soon in real time, not 
Fed time.
    Senator Kennedy. OK. Well, let us suppose that a community 
bank had 6 percent capital. Would you consider that to be well 
capitalized?
    Mr. Quarles. Depending on the type of capital, that could 
be well capitalized.
    Senator Kennedy. OK, with reasonable liquidity.
    Mr. Quarles. Yeah, I think the community bank leverage 
ratio instruction is somewhere between 8 and 10. We are to look 
between 8 and 10 percent.
    Senator Kennedy. Right, 8, 10, 12. I am just saying there 
are a lot of small institutions out there that are very well 
capitalized, and if they belly up, the world is not going to 
spin off its axis. It may for its shareholders, but that is the 
way capitalism works.
    Mr. Quarles. Sure.
    Senator Kennedy. So we really ought to be trying to do 
everything we can to get a little Government off their back so 
you can concentrate your efforts on banks whose demise could 
threaten our banking system. Would that be fair?
    Mr. Quarles. I agree.
    Senator Kennedy. OK. I hope you will do that in developing 
the ratio, and I hope you will take a good second look at that 
rule that I mentioned. Thank you, Mr. Vice Chairman.
    Mr. Quarles. Thank you, Senator.
    Senator Kennedy. Have a Happy Thanksgiving.
    Mr. Quarles. Thank you.
    Chairman Crapo. Senator Menendez.
    Senator Menendez. Thank you.
    Last week it was reported that more than 500 families, 
including 22 in New Jersey, wrongly lost their homes to 
foreclosure because of an error in Wells Fargo underwriting 
software which caused the bank to incorrectly deny mortgage 
modifications to homeowners. That is unacceptable, and there is 
no amount of remediation or apology that makes up for losing 
your home.
    Now, I know, Mr. Vice Chair, that you have recused yourself 
from matters specific to Wells Fargo, but I do think this 
raises a more serious overarching question about the oversight 
of the Nation's biggest banks. I am seriously concerned that we 
are re-creating a world where homeowners are at the mercy of 
the banks and there will not be a cop on the beat when things 
go bad.
    So what assurances can you give us that the Federal Reserve 
is specifically monitoring for these types of issues and in a 
larger sense ensuring that homeowners are not subject to the 
same abuses they were during the crisis?
    Mr. Quarles. So we have a large and active Division of 
Consumer and Community Affairs where we have regulatory 
authority that remains after the Dodd-Frank Act--and our 
authority was restricted to some extent as you know, but where 
we have regulatory authority, we have a very active enforcement 
program in ensuring that we are both examining and, where we 
see deficiencies, enforcing against consumer problems.
    Senator Menendez. And so in this case, that would have been 
lost in that process? Or would something like this be lost in 
that process?
    Mr. Quarles. So I would not think so. I mean, that is the 
sort of thing that we would look at. I would have to--we can 
get back to you with more specifics. The Fed can get back to 
you with more specifics about Wells Fargo since I am recused, 
but as a general systemic matter, we certainly--we do not 
underemphasize----
    Senator Menendez. My point is if you, in fact--I appreciate 
your answer. If you, in fact, are saying that you are looking 
at systemic issues that might affect homeowners in a way that 
this particular instance did, then it did not work as it 
relates to Wells Fargo. So we have to understand what is it 
that did not work. I would love to hear from the Fed the 
specific about Wells Fargo. But I would like to also hear what 
did not work at the end of the day that did not catch this.
    The Federal Reserve recently proposed loosening liquidity 
rules for banks as large as $700 billion in assets. During the 
crisis these same banks received almost $60 billion in taxpayer 
bailouts. Liquidity standards are critical to ensuring banks 
have enough cash on hand to meet the demand should there be a 
stress in the market. The Fed's proposal, however, would slash 
those requirements and would result in a $77 billion decrease 
in liquid assets for banks with assets of $100 to $700 billion.
    Fed Governor Brainard voted against the proposal saying she 
saw no changes in the financial environment that would require 
the Federal Reserve to substantially weaken such rules. 
Moreover, she said, this proposal comes at the ``expense of an 
economically meaningful increase in the probability of stress 
at affected institutions,'' which, in other words, I translate 
into it is pretty risky.
    How can you justify these changes which put taxpayers at 
risk of future bailouts?
    Mr. Quarles. So I do not think that they have put taxpayers 
at risk of future bailouts. The effect of our proposed 
liquidity changes would be a reduction in the overall amount of 
liquidity in the system of between 2 and 2.5 percent. We have 
since the crisis added $3 trillion of liquidity. That is 
multiples of liquidity than existed before the crisis. And 
these changes to tailor the burden of complying with 
regulation, according to the riskiness of firms, you know, I 
think are quite appropriate. The firms in that category are 
generally funded with much less wholesale funding. They are 
much less subject to liquidity risk. And yet the overall 
consequence of this change is only 2 to 2.5 percent available 
liquidity in the system.
    Senator Menendez. Let me talk to that 2.5 percent that you 
cite. My reading of that decline is that it is based on a 
larger consideration of all liquid assets in the system for 
banks with more than $100 billion in assets. What we are 
talking about is the decline in liquid assets for banks between 
$100 and $700 billion. So surely that ratio is much higher if 
you consider the liquid assets of the institutions who are 
receiving relief.
    It is estimated that it is a decline of 30 percent for the 
banks over $250 billion in assets and 15 percent for those with 
assets between $100 and $250 billion. So it is not 2.5 percent.
    Mr. Quarles. Well, I think the appropriate denominator is 
the system. If you take a subset, you will always get a higher 
percentage if you take just a subset. But if you look at the 
system as a whole, we are not affecting in any material way the 
liquidity resources of the system.
    We also are under a statutory instruction to tailor our 
regulation for all firms, and I think this is a way to do that 
to implement the statute without having an important systemic--
--
    Senator Menendez. I do not think that statutory instruction 
is one that drives you to ultimately create the potential for 
greater risk as part of that instruction.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Governor Quarles, that concludes the questioning. We 
appreciate again you taking the time to be here with us today.
    For Senators wishing to submit questions for the record, 
those questions are due on Monday, November 26th, and, Vice 
Chairman Quarles, we ask that you respond promptly to those 
questions. And, once again, thank you for being here.
    Mr. Quarles. Thank you.
    Chairman Crapo. This Committee is adjourned.
    [Whereupon, at 11:04 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    Today we will receive testimony from Federal Reserve Vice Chairman 
for Supervision Randy Quarles regarding the efforts, activities, 
objectives, and plans of the Federal Reserve Board with respect to the 
conduct, supervision and regulation of financial firms supervised by 
the Federal Reserve Board.
    We last heard from Vice Chairman Quarles in October on the Fed's 
progress implementing S. 2155, the Economic Growth, Regulatory Relief 
and Consumer Protection Act.
    At that time, the Fed had taken actions to implement some 
provisions of S. 2155, including those related to the 18-month exam 
cycle, high-volatility commercial real estate and the Small Bank 
Holding Company Policy Statement.
    Since then, the Fed has taken new steps to implement key provisions 
of the bill.
    Recently, the Fed issued proposals revising the application of 
enhanced prudential standards across four categories of firms to 
reflect each category's varying risks.
    These proposals are a step in the right direction, and I appreciate 
the Fed's work to issue them quickly.
    I understand the amount of staff work that went into getting the 
proposals out, and thank you and your staff for your work on these 
proposals.
    The proposals would assign banking organizations to one of four 
categories based on their size and other risk-based indicators, 
including: cross-jurisdictional activity; nonbank assets; short-term 
wholesale funding; off-balance-sheet exposures; and status as a U.S. 
global systemically important bank, or U.S. G-SIB.
    The category to which an institution is assigned would determine 
the enhanced prudential standards and capital and liquidity 
requirements to which it would be subject.
    I look forward to hearing how the application of certain enhanced 
prudential standards would address the risks associated with cross-
jurisdictional activity, nonbank assets, short-term wholesale funding 
and off-balance-sheet exposures.
    The proposal incorporates a number of very positive changes to the 
current framework for regional banks, including: relief from advanced 
approaches capital requirements; a reduced liquidity coverage ratio; 
and changes to the frequency of supervisory and company-run stress 
testing and, some cases, the disclosure of the results.
    Despite this positive step, the agencies have left a number of 
items unaddressed, including: the treatment of foreign banking 
organizations; additional details on stress testing, including the 
Fed's Comprehensive Capital Analysis and Review, or CCAR; and 
resolution planning.
    I encourage the regulators to revisit all regulation and guidance 
thresholds that were consistent with the outdated Section 165 threshold 
to an amount that reflects actual systemic risk.
    Regulators have two options: use a systemic risk factors-based 
approach, or raise all thresholds to at least $250 billion in total 
assets to be consistent with S. 2155.
    There are also other noteworthy provisions of the bill on which the 
Fed, working with other regulators, has yet to act, including 
implementation of the Community Bank Leverage Ratio and the provision 
that exempted cash deposits placed at central banks by custody banks 
from the supplemental leverage ratio.
    The Fed should work promptly to issue proposals to address these 
critical outstanding issues.
    I was encouraged by Vice Chairman Quarles' speech last week, 
particularly the emphasis on providing more transparency around stress 
testing and capital planning processes.
    Finally, last week, all Republican Members of the Banking Committee 
sent the FDIC a letter on Operation Choke Point.
    Operation Choke Point is an initiative in which Federal agencies 
devised and relied upon a list of politically disfavored merchant 
categories with the intent of ``choking-off'' these merchants' access 
to payment systems and banking services.
    Staff at the banking agencies use verbal recommendations to 
encourage banks to stop doing business with disfavored, but legal 
businesses.
    I plan to look into how policy is communicated from the banking 
agencies to regulated institutions more broadly.
    I appreciate Vice Chairman Quarles' joining us today to discuss 
developments in the Fed's supervision and regulation and look forward 
to hearing more about the Fed's pending work to implement S. 2155.
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Thank you, Mr. Chairman and thank you Vice Chairman Quarles for 
appearing before the Committee today.
    The Federal Reserve's responsibility, and Vice Chairman Quarles' 
job, is to ensure that the economy works for average Americans--that if 
you work hard, you can get ahead.
    That Wall Street doesn't again crash the financial system and 
squander the pensions that families worked their whole lives to earn.
    That banks can't cheat workers out of their hard-earned savings.
    And that executives are held accountable when they break the law.
    We know the Fed failed in its mission 10 years ago. The Fed had all 
the power it needed to prevent the crash, and its leaders in Washington 
were too complacent, and too cozy with Wall Street, to use their 
authority to rein in the largest banks and protect American taxpayers.
    That's why immediately after the crash, we put in place rules to 
strengthen taxpayer protections from big bank risk, and to protect 
consumers from predatory practices.
    The rules worked--our system got safer, and the rules haven't 
stopped banks from becoming more profitable than ever. The Fed released 
a report on Friday showing that two important measures of banks' 
profitability--return on equity and average return on assets--hit a 10-
year high in the second quarter of 2018.
    Banks have also reported a 30 percent growth in loan volume since 
2013, while experiencing a 10-year low in the share of loans that 
aren't performing.
    But now, with legislation enacted earlier this year, and the 
actions of this Administration, we are witnessing--piece by piece--the 
dismantling of these protections for American workers.
    Since the last time Mr. Quarles testified before this Committee, we 
have two new developments that underscore this point.
    First, the Federal Reserve's proposal to implement the bank 
giveaway bill, S. 2155, goes far beyond what the authors of that 
legislation claimed the bill would do. The Fed's proposed rule loosens 
protections for banks with more than $250 billion in assets--not small 
community banks--we're talking about the Nation's biggest financial 
institutions. Combined, these firms hold $1.5 trillion in assets.
    The Fed's proposal also promises more goodies for the big banks, 
with rollbacks for large foreign banks expected in the next few months. 
This is despite the fact that the Fed's own progress report said that 
foreign banks continue to violate anti- money laundering laws and skirt 
Dodd-Frank requirements.
    Second, Vice Chairman Quarles gave a speech last week outlining the 
Fed's plans for the very largest domestic banks--a speech that could 
have easily been written by one of their lobbyists.
    Mr. Quarles wants to weaken capital requirements for the megabanks, 
eliminating any leverage capital standards in stress tests. We got a 
preview of what this would look like in June, when the Fed gave passing 
grades to three banks that had clearly failed their stress tests. Now, 
Mr. Quarles wants to make this year's giveaway permanent.
    The speech outlined a series of other changes to the Fed's stress 
tests that would render them essentially meaningless. Mr. Quarles makes 
no secret of the fact that he wants to ease up on the assumptions that 
guide the tests, wants to eliminate portions of the tests, and wants to 
share with the banks the Fed's internal models against which they are 
graded--that's like giving students the answers ahead of time.
    These changes, taken alongside the weakening of the Volcker Rule, 
other big bank leverage standards, and an abandonment of nonbank 
financial oversight, amount to gutting the postcrisis protections we 
put in place to protect American taxpayers future bailouts.
    It's not just me saying this. Stanley Fischer--the former Vice 
Chairman of the Fed--called these combined rollbacks quote, ``mind 
boggling'' and quote ``very dangerous.''
    When regulators haven't finished implementing Dodd-Frank, and the 
economy hasn't even gone through a full economic cycle, now is not the 
time to begin dismantling our postcrisis protections. It's always the 
same story--Wall Street recovers, working families don't. And when 
Washington policymakers suffer from collective amnesia, working 
families, savers, and taxpayers end up paying the price.
                                 ______
                                 
                PREPARED STATEMENT OF RANDAL K. QUARLES
   Vice Chairman for Supervision, Board of Governors of the Federal 
                             Reserve System
                           November 15, 2018
    Chairman Crapo, Ranking Member Brown, other Members of the 
Committee, thank you for the opportunity to testify on the Federal 
Reserve's regulation and supervision of the financial system. My 
testimony today covers two main topics: our efforts to improve 
regulatory transparency, including the report accompanying my 
submission to the Committee, and our progress in making the postcrisis 
regulatory framework simpler and more efficient.
The Role of Transparency in Regulation and Supervision
    I am mindful that this semiannual testimony--like my position as 
Vice Chairman for Supervision--is grounded in Congress's efforts to 
strengthen and improve the Nation's regulatory framework following the 
financial crisis. This testimony reflects a critical element of those 
efforts: the desire, and the need, for greater transparency.
    Transparency is part of the foundation of public accountability and 
a cornerstone of due process. It is also key to a well-functioning 
regulatory system and an essential aspect of safety and soundness, as 
well as financial stability. Transparency provides financial firms 
clarity on the letter and spirit of their obligations; it provides 
supervisors with the benefit of exposure to a diversity of 
perspectives; and it provides markets with insight into the condition 
of regulated firms, fostering market discipline. Transparency increases 
public confidence in the role of the financial system to support 
credit, investment, and economic growth.
    The Federal Reserve has taken a number of steps since my last 
testimony to further increase transparency, and to provide more 
information about our supervisory activities to both regulated 
institutions and the public.
    For example, the Board recently improved its supervisory ratings 
system for large financial institutions. \1\ Ratings are an essential 
vehicle for supervisory feedback--a clear, concise way to convey 
whether a firm meets expectations, with tangible, predictable 
consequences for those that fall short. Our ratings system for large 
institutions had remained unchanged since 2004, even as our supervision 
of those institutions evolved significantly after the crisis. The new 
rating system will better align ratings for these firms with the 
supervisory feedback they receive, and will focus firms on the capital, 
liquidity, and governance issues most likely to affect safety and 
soundness.
---------------------------------------------------------------------------
     \1\ Board of Governors of the Federal Reserve System, ``Federal 
Reserve Board Finalizes New Supervisory Rating System for Large 
Financial Institutions'', news release, November 2, 2018, https://
www.federalreserve.gov/newsevents/pressreleases/bcreg20181102a.htm.
---------------------------------------------------------------------------
    The banking agencies also recently clarified that supervisory 
guidance is a tool to enhance the transparency of supervisory 
expectations, and should never be the basis of an enforcement action. 
\2\ Guidance--a valuable tool for examiners to help evaluate firms and 
explain supervisory findings--should always be based on concerns for 
safety and soundness or compliance at a particular firm. However, 
guidance is not legally enforceable, and Federal Reserve examiners will 
not treat it that way.
---------------------------------------------------------------------------
     \2\ Board of Governors of the Federal Reserve System, Bureau of 
Consumer Financial Protection, Federal Deposit Insurance Corporation, 
National Credit Union Administration, and Office of the Comptroller of 
the Currency, ``Agencies Issue Statement Reaffirming the Role of 
Supervisory Guidance'', news release, September 11, 2018, https://
www.federalreserve.gov/newsevents/pressreleases/bcreg20180911a.htm.
---------------------------------------------------------------------------
    Finally, we expect shortly to make final a set of measures to 
increase visibility into the Board's supervisory stress testing 
program. The enhanced disclosures will include more granular 
descriptions of our models; more information about the design of our 
scenarios; and more detail about the outcomes we project, including a 
range of loss rates for loans held by firms subject to the 
Comprehensive Capital Analysis and Review. The disclosures will provide 
a more complete picture of the stress testing process, and facilitate 
thoughtful comments from academics and other members of the public, 
while mitigating the risk of convergence on a single model. As a 
result, we believe the disclosures will improve our work, making the 
tests more reliable, visible, and credible. We will continue our 
efforts toward greater transparency in stress testing over the next 
several years, including by disclosing descriptions of additional 
material models and modeled loss rate disclosures for loan and nonloan 
portfolios.
Semiannual Review of the Safety and Soundness of the U.S. Banking 
        System
    The report that accompanies my testimony today is another tool to 
keep Congress, and the public, informed about our work, the banking 
system, and the role of both in supporting the broader economy. \3\ The 
report focuses on the Federal Reserve's prudential supervisory 
activities. \4\ As the report shows, the banking sector remains in 
strong condition, in line with strong U.S. economic performance, with 
lending growth, fewer nonperforming loans, and strong overall 
profitability.
---------------------------------------------------------------------------
     \3\ Board of Governors of the Federal Reserve System, 
``Supervision and Regulation Report'', November 9, 2018, 
www.federalreserve.gov/publications/supervision-and-regulation-
report.htm.
     \4\ The Federal Reserve is also responsible for timely and 
effective supervision of consumer protection and community reinvestment 
laws and regulations. More information about the Federal Reserve's 
consumer-focused supervisory program can be found in the Federal 
Reserve's Annual Report to Congress. See section 5, ``Consumer and 
Community Affairs'', at https://www.federalreserve.gov/publications/
annual-report.htm. The Federal Reserve also publishes the Consumer 
Compliance Supervision Bulletin, which shares information about 
examiners' supervisory observations and other noteworthy developments 
related to consumer protections. See https://www.federalreserve.gov/
publications/consumer-compliance-supervision-bulletin.htm.
---------------------------------------------------------------------------
    Large institutions are well capitalized and liquid, and their 
capital planning and liquidity-risk-management processes are improving. 
Ninety-nine percent of regional and community banks are currently well 
capitalized, and supervisory recommendations made to smaller firms 
during the financial crisis have largely been closed. We are, however, 
very much aware of the dangers of complacency, and our report lists 
several priority areas of risk we will continue to monitor closely in 
the coming year, including cyber and information technology risks at 
supervised firms of all sizes.
Improvements in Regulatory Efficiency
    Improving regulatory efficiency is another core element of our 
current regulatory efforts. Tailoring regulation and supervision to 
risk has been a programmatic goal of Federal Reserve policy for more 
than two decades. The motivations are clear: supervisory resources are 
not limitless, and supervision is not costless, either to the public or 
to supervised institutions. Activities and firms that pose the greatest 
risk should receive the most scrutiny, and where the risk is lower, the 
regulatory burden should be lower as well.
    This principle guided Congress and the Federal banking agencies in 
designing the postcrisis regulatory framework, which imposed greater 
restrictions on larger, more systemically important firms and less 
intrusive requirements on smaller ones. It has also guided our 
implementation of the Economic Growth, Regulatory Relief, and Consumer 
Protection Act (EGRRCPA, or the Act). \5\ On this front, we have made 
substantial progress:
---------------------------------------------------------------------------
     \5\ EGRRCPA, Pub. L. No. 115-174, 132 Stat. 1296 (2018).

  <bullet>  expanding eligibility of community banking firms for the 
        Small Bank Holding Company Policy Statement, and for longer, 
        18-month examination cycles; \6\
---------------------------------------------------------------------------
     \6\ Board of Governors of the Federal Reserve System, ``Federal 
Reserve Board Issues Interim Final Rule Expanding the Applicability of 
the Board's Small Bank Holding Company Policy Statement'', news 
release, August 28, 2018, https://www.federalreserve.gov/newsevents/
pressreleases/bcreg20180828a.htm.

  <bullet>  giving bank holding companies below $100 billion in assets 
        immediate relief from supervisory assessments, stress testing 
        requirements, and some additional Dodd-Frank Act prudential 
        measures; \7\ and
---------------------------------------------------------------------------
     \7\ Board of Governors of the Federal Reserve System, ``Statement 
Regarding the Impact of the Economic Growth, Regulatory Relief, and 
Consumer Protection Act (EGRRCPA)'', July 6, 2018, https://
www.federalreserve.gov/newsevents/pressreleases/files/
bcreg20180706b1.pdf.

  <bullet>  implementing changes to liquidity regulation of municipal 
        securities and capital regulation of high-volatility commercial 
        real estate exposures. \8\
---------------------------------------------------------------------------
     \8\ Board of Governors of the Federal Reserve System, Federal 
Deposit Insurance Corporation, and Office of the Comptroller of the 
Currency, ``Agencies Propose Rule Regarding the Treatment of High 
Volatility Commercial Real Estate'', news release, September 18, 2018, 
https://www.federalreserve.gov/newsevents/pressreleases/
bcreg20180918a.htm.

    The Board, Federal Deposit Insurance Corporation (FDIC), and Office 
of the Comptroller of the Currency (OCC) have also continued the work 
to significantly reduce the reporting burden on community banking 
organizations, altering reporting frequencies, items, and thresholds, 
while preserving the data necessary for effective oversight. \9\ The 
agencies recently issued a proposal to reduce further reporting 
requirements for small depository institutions in the first and third 
quarters of the year. Under the proposal, around 37 percent of data 
items would not be required in those quarters.
---------------------------------------------------------------------------
     \9\ Board of Governors of the Federal Reserve System, Federal 
Deposit Insurance Corporation, and Office of the Comptroller of the 
Currency, ``Agencies Issue Proposal To Streamline Regulatory Reporting 
for Qualifying Small Institutions'', news release, November 7, 2018, 
https://www.federalreserve.gov/newsevents/pressreleases/
bcreg20181107a.htm.
---------------------------------------------------------------------------
    Our most significant step to implement the Act came 2 weeks ago, 
when the Board issued two proposals to better align prudential 
standards with the risk profile of regulated institutions. \10\ These 
proposals implement changes that Congress enacted this spring in the 
EGRRCPA. One of the proposals addresses the Board's enhanced prudential 
standards for large banking firms, and the other is an interagency 
proposal amending the regulatory capital and liquidity regulations that 
apply to large banking organizations. Both proposals separate large 
banking firms into four categories, using size as a relevant but not 
sufficient factor for increased regulatory requirements. Among the 
other factors that will now enter into this assessment are nonbank 
assets, short-term wholesale funding, and off-balance-sheet exposure. 
The changes would significantly reduce regulatory compliance 
requirements for firms in the lowest risk category, including most 
institutions with between $100 billion and $250 billion in assets. 
Firms with $250 billion or more in assets, or firms with assets between 
$100 billion and $250 billion that meet a risk threshold, will face 
reduced liquidity requirements. The proposals would largely maintain 
existing requirements for the largest and most complex firms.
---------------------------------------------------------------------------
     \10\ Board of Governors of the Federal Reserve System, ``Federal 
Reserve Board Invites Public Comment on Framework That Would More 
Closely Match Regulations for Large Banking Organizations With Their 
Risk Profiles'', news release, October 31, 2018, https://
www.federalreserve.gov/newsevents/pressreleases/bcreg20181031a.htm.
---------------------------------------------------------------------------
    These new categories represent a step forward in regulatory 
efficiency. They draw on our experience administering enhanced 
prudential requirements and other postcrisis measures. They recognize 
that other indicators of risk beyond size are appropriate to consider 
when determining if more stringent standards should apply to certain 
firms. They move toward a more risk-sensitive, nuanced framework, where 
riskier activities and a larger systemic footprint correspond to higher 
supervisory and regulatory requirements.
    Apart from the requirements of the Act, we also recently proposed a 
new approach to calculating credit risk, known as the standardized 
approach to counterparty credit risk, or SA-CCR. The new approach would 
better account for the risks associated with derivatives exposures, 
including market practices that reduce risk, such as netting and 
initial margin. \11\ We issued a proposal simplifying and tailoring 
requirements under the Volcker rule, to ensure that the most stringent 
requirements apply to the firms with the most trading activity, and 
that compliance is as simple and objective as possible. We also issued 
a rule limiting the exposure of large firms to a single counterparty, 
addressing a key source of contagion during the financial crisis. We 
have received thoughtful input from the public that will help inform 
our implementation of all of these measures.
---------------------------------------------------------------------------
     \11\ Board of Governors of the Federal Reserve System, Federal 
Deposit Insurance Corporation, and Office of the Comptroller of the 
Currency, ``Agencies Propose Rule To Update Calculation of Derivative 
Contract Exposure Amounts Under Regulatory Capital Rules'', news 
release, October 30, 2018, https://www.federalreserve.gov/newsevents/
pressreleases/bcreg20181030a.htm.
---------------------------------------------------------------------------
    Finally, we have continued to engage with supervisors and central 
banks overseas. The ultimate goal of having an efficient and 
transparent regulatory system is to help the American economy--to 
enable banking organizations to offer safe, stable financial services 
to households and businesses around the country. But American 
businesses compete in a global marketplace, and as the financial crisis 
showed, when regulatory standards fall in other countries, Americans 
can pay the price. Engaging overseas, through forums like the Financial 
Stability Board and the Basel Committee on Banking Supervision, helps 
level the playing field--and it helps ensure that all countries, not 
just the United States, do their part to maintain and protect the 
global economy.
    Our work to improve regulatory efficiency is not done, and we 
expect to make additional progress in the months ahead on a number of 
issues. In particular, we are working with our counterparts at the OCC 
and FDIC on a community bank leverage ratio proposal. We expect that 
this proposal would meaningfully reduce the compliance burden for 
community banking organizations, while preserving overall levels of 
capital at small banks and our ability to take prompt action when 
problems arise.
    I look forward to continuing our efforts to make our regulatory 
framework simpler, more transparent, and more efficient--and I look 
forward to participating in the Committee's oversight of those efforts. 
As Chairman Powell said at his swearing-in: ``As a public institution, 
we must be transparent about our actions so that the public, through 
its elected representatives, can hold us accountable.'' \12\ We will 
continue to do so to the best of our ability.
---------------------------------------------------------------------------
     \12\ Jerome H. Powell, ``Remarks at the Ceremonial Swearing-in'' 
(speech at the Federal Reserve Board, Washington, DC, February 13, 
2018), https://www.federalreserve.gov/newsevents/speech/
powell20180213a.htm.
---------------------------------------------------------------------------
    Thank you, and I look forward to answering your questions.
            SUPERVISION AND REGULATION REPORT--NOVEMBER 2018


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM RANDAL K. QUARLES

Q.1. The Fed's regulation report released on November 9, 2018, 
said that foreign banking organizations (FBOs) still face 
challenges in complying with Dodd-Frank Act enhanced prudential 
standards (EPS). And yet your testimony noted that FBOs can 
expect a rule to ``tailor'' EPS in the coming year.
    Why would the Fed alter taxpayer protections with regard to 
FBOs when the Fed's own report says that banks aren't fully 
complying with existing requirements?

A.1. The Board of Governors of the Federal Reserve System 
(Board) has taken, and will continue to take, a risk-based 
approach to supervision, focusing its resources on those 
institutions (both domestic and foreign) that pose the greatest 
risk to safety and soundness and financial stability. On 
October 31, 2018, the Board approved two notices of proposed 
rulemaking that would establish a revised framework for 
applying enhanced prudential standards to large U.S. banking 
organizations based on their risk profiles. The proposals would 
establish four categories of standards that reflect the 
different risks of firms in each group and would largely keep 
existing requirements in place for the riskiest and largest 
firms. The proposals build on the Board's existing tailoring of 
its rules and experience implementing those rules, and account 
for statutory changes enacted by the Economic Growth, 
Regulatory Relief, and Consumer Protection Act.
    The changes proposed on October 31, 2018, do not apply to 
foreign banking organizations. As a part of the Board's current 
effort to develop a tailoring proposal for foreign banks, we 
are considering the appropriate way to assign foreign U.S. 
operations to the category of prudential standards described in 
the tailoring proposal for domestic firms, in light of the 
structures through which these firms conduct business in the 
Unites States.
    I expect that this proposal and the two proposed 
rulemakings from October 31, 2018, by applying enhanced 
prudential standards based on risk profile, will enable the 
Board to continue to apply its risk-based approach to 
supervision in a more effective and efficient manner.

Q.2. In April, the Fed proposed weakening the enhanced 
supplemental leverage ratio (eSLR) by $121 billion for the 
insured depository institutions of the eight largest banks and 
proposed weakening the version of the leverage ratio used in 
stress tests. In a recent speech, you went further, saying that 
the leverage ratio should be eliminated altogether in stress 
tests. More than half of global systemically important banks 
(G-SIBs) have had their stock buybacks and dividends limited in 
recent years because the leverage ratio was the binding 
constraint on capital distributions.
    How do you justify letting large banks send capital to 
shareholders and executives when it could otherwise be 
protecting taxpayers from bailouts?

A.2. Postcrisis regulatory reforms, including the supplementary 
leverage ratio, were designed to improve the safety and 
soundness and reduce the probability of failure of banking 
organizations, as well as to reduce the consequences to the 
financial system if such a failure were to occur. For large 
banking organizations in particular, the objective of the 
Federal Reserve Board (Board) has been to establish capital and 
other prudential requirements at a level that not only promotes 
resiliency at the banking organization and protects financial 
stability, but also maximizes long term, through-the-cycle 
credit availability and economic growth. In reviewing the 
postcrisis reforms both individually and collectively, the 
Board has sought ways to streamline and tailor the regulatory 
framework, while ensuring that such firms have adequate capital 
to continue to act as financial intermediaries during times of 
stress.
    Consistent with these efforts, the Board proposed to 
recalibrate the enhanced supplementary leverage ratio (eSLR) to 
align leverage capital requirements with risk-based capital 
requirements for the G-SIBs. In particular, leverage capital 
requirements should generally act as a backstop to the risk-
based requirements. If a leverage ratio is calibrated at a 
level that makes it generally a binding constraint, it can 
create incentives for firms to reduce participation in or 
increase costs for low-risk, low-return businesses. Over the 
past few years, however, concerns were raised that in certain 
cases the eSLR has become a binding constraint rather than a 
backstop to the risk-based standards. With respect to the April 
2018 proposal, a decrease in capital requirements at a 
subsidiary depository institution does not necessarily result 
in its holding company being able to distribute those funds to 
shareholders. This happens because the capital rule and other 
regulatory restrictions at the holding company level, such as 
the Board's annual stress tests, limit the amount of capital 
that a holding company can distribute to shareholders. The 
analysis that accompanied the April 2018 proposal showed that 
the banking organizations that would be subject to the 
proposal--global systemically important banking organizations 
(U.S. G-SIBs)--would be able to release only up to $400 million 
of tier 1 capital (or approximately 0.04 percent of the amount 
of tier 1 capital held by these firms) to their shareholders.
    With respect to the stress testing program, explicitly 
assigning a leverage buffer requirement to a firm on the basis 
of risk-sensitive poststress estimates, as the stress testing 
framework is intended to do, may be inconsistent with the goals 
of the leverage ratio.

Q.3. In a recent comment letter, the Federal Reserve Bank of 
Minneapolis noted that the ``proposed tailoring of the eSLR and 
alterations to the existing stress testing that the Board is 
considering will weaken taxpayer protection from bailouts. 
Recent evidence--some of which economists from the Board of 
Governors itself has produced--finds that equity funding 
requirements for the largest banks are too low, not too high. 
Even measures of the credit cycle and financial stability risk 
indicate that it is likely prudent for banks to continue to 
build capital.''
    Please provide your perspective on this statement.

A.3. Maintaining the safety and soundness of the largest U.S. 
banks is critical to maintaining the stability of the U.S. 
financial system and the broader economy. Accordingly, 
postcrisis, the Board along with the other U.S. banking 
agencies substantially strengthened regulatory capital 
requirements for large banks. The Board's capital rules have 
been designed to significantly reduce the likelihood and 
severity of future financial crises by reducing both the 
probability of failure of a large banking organization and the 
consequences of such a failure, were it to occur. Capital rules 
and other prudential requirements for large banking 
organizations should be set at a level that protects financial 
stability and maximizes long-term, through-the-cycle, credit 
availability and economic growth. In general, I believe overall 
loss-absorbing capacity for our largest banking organizations 
is at about the right level.
    More recently, the Board has proposed various regulatory 
refinements to pursue its long-standing goal of applying 
prudential standards based on a bank's risk profile and size. 
This tailoring of regulations enables the Board to supervise 
banking organizations in an effective and efficient manner 
while maintaining their safety and soundness.

Q.4. In a recent speech, you noted that the Fed is going to 
repropose a rule on its stress testing regime in light of 
comment letters it received. Then your speech goes on to list a 
whole host of changes the Fed may make--each of which is more 
favorable to the banks.
    If the Fed reproposing the Stress Capital Buffer (SCB) 
proposal as you've outlined, would G-SIBs be required to hold 
more or less capital relative to the original SCB proposal?
    Can you point us to an example of a proposed change, as 
noted in your speech, which would require G-SIBs to hold 
additional capital?

A.4. The Board's notice of public rulemaking entitled 
Amendments to the Regulatory Capital, Capital Plan, and Stress 
Test Rules \1\ issued in April 2018 would integrate the Board's 
regulatory capital rules, the Board's Comprehensive Capital 
Analysis and Review (CCAR), and stress test rules. Under the 
proposal, the Board's supervisory stress test would be used to 
establish the size of a firm's stress capital buffer 
requirement. As noted in the proposal, the stress capital 
buffer requirement would generally maintain or in some cases 
increase common equity tier 1 capital requirements for global 
systemically important banking organizations (G-SIBs). That 
said, the impact of the proposal on firms would vary through 
the economic and credit cycle based on the risk profiles and 
planned capital distributions of individual firms, as well as 
the specific severely adverse stress scenario used in the 
supervisory stress test. The same potential impact on 
individual firms also would exist under the changes that I have 
outlined previously in greater detail. \2\
---------------------------------------------------------------------------
     \1\ https://www.govinfo.gov/content/pkg/FR-2018-04-25/pdf/2018-
08006.pdf
     \2\ See, ``A New Chapter in Stress Testing'', at https://
www.federalreserve.gov/newsevents/speech/guarles20181109a.htm.
---------------------------------------------------------------------------
    Board staff are currently reviewing all comments on the 
proposal and will carefully consider whether any changes to the 
proposal are appropriate.

Q.5. Does the Fed plan to incorporate the G-SIB surcharge into 
the Comprehensive Capital Analysis and Review (CCAR) for 2019?

A.5. In 2019, as in past CCAR cycles, the Board intends to 
evaluate each firm's ability to maintain capital ratios above 
the poststress minimum requirements. The global systemically 
important bank holding company surcharge is not a minimum 
requirement, and thus, would not be considered as part of the 
CCAR's quantitative assessment.
    We are continuing to evaluate ways to simplify the Board's 
capital framework by more closely integrating the regulatory 
capital rules and stress testing. The Board's proposal, issued 
in April 2018 as noted in the response to 4(a), would introduce 
the concept of stress buffer requirements into the regulatory 
capital rules. This proposal would integrate the results of the 
Board's supervisory stress test into the regulatory capital 
rules, which already incorporates the G-SIB surcharge.
    The goal of the proposal is to provide a more integrated 
and cohesive framework that reduces redundancies and 
inconsistencies across the capital rules and stress testing 
rules. The proposal includes other modifications as well, such 
as changes to the assumptions used in our stress test.

Q.6. Will you commit to making your meeting schedule 
transparent so that the Congress and the public can see who 
you're talking to before the Fed announces any proposed rules 
changing bank capital, leverage, liquidity, or other standards?

A.6. In my work as a Federal Reserve Board (Board) Governor, as 
well as the Vice Chair for Supervision and Regulation, I 
regularly meet with a wide range of representatives from the 
industry, peer domestic and foreign regulators, academics, 
public interest groups, and others. These meetings inform me 
and, in turn, the Board on a broad array of critical issues. 
Consistent with the practice of other Board members, I have 
always provided my calendar to the public upon request and will 
be happy to provide a copy to your staff.

Q.7. You have proposed eliminating the qualitative objection 
currently included in CCAR. Previously, banks such as Deutsche 
Bank, Santander, Citigroup, HSBC, RBS, Ally, and BB&T have 
received objections to their capital distribution plans based 
on qualitative factors.
    What is your justification for eliminating the qualitative 
objection under CCAR?

A.7. Capital planning is a core aspect of financial and risk 
management that helps ensure the financial strength and 
resilience of a firm. Strong, forward-looking capital planning 
processes ensure that large firms have sufficient capital to 
absorb losses and continue to lend to creditworthy businesses 
and consumers, including during times of stress.
    In 2017, the Federal Reserve eliminated the qualitative 
objection as part of the Comprehensive Capital Analysis and 
Review (CCAR) for large and noncomplex firms, which are 
generally firms with less than $250 billion in assets, in part 
because of improvements in risk management at these firms. I 
believe that the removal of the qualitative objection for these 
firms has not diminished the effectiveness of supervision.
    Similarly, larger firms have also generally improved their 
risk management in the years since the inception of CCAR. 
Removing the public objection tool and continuing to evaluate 
firms' stress testing practices through normal supervision for 
all firms would align the outcome of the CCAR qualitative 
assessment with other supervisory programs. Firms would remain 
subject to the same supervisory expectations, and examiners 
would continue to conduct rigorous horizontal and firm specific 
assessments of a firm's capital positions and capital planning, 
tailored to the risk profile of the firm. While much of the 
examination work would center on a firm's capital plan 
submissions, examination work would continue on a year-round 
basis, taking into account the firm's management of other 
financial risks. The evaluation of the firm's capital position 
and capital planning would culminate in a rating of the firm's 
capital position and planning. Firms with deficient practices 
would receive supervisory findings through the examination 
process, and would be at risk of a ratings downgrade or 
enforcement action if those deficiencies were sufficiently 
material or not addressed in a timely manner.

Q.8. When you were asked about the Community Reinvestment Act 
at a recent House of Representatives hearing, you said that the 
law had become too ``formulaic'' and that it was therefore less 
effective.
    If that's the case, would you oppose the aspect of the 
OCC's proposal--which would make the CRA even more formulaic by 
grading banks' performance according to one simple ratio?

A.8. I was referring to the fact that, over the years, 
practices have developed among both banks and their supervisors 
that result in much Community Reinvestment Act (CRA) compliance 
being satisfied with a single type of activity. The drafters of 
the CRA contemplated, and the language of the statute itself 
supports, a much broader potential for involvement in community 
development and a much wider range of qualifying investments 
than currently tends to result from CRA compliance. We are 
reviewing information the Office of the Comptroller of the 
Currency has received in response to its advance notice of 
proposed rulemaking on the CRA, as well as information gathered 
through the Federal Reserve's listening sessions at many of the 
Federal Reserve Banks around the country, to determine whether 
there are steps we might take as regulators to come closer to 
both the letter and intent of the statute. That review is 
ongoing, and our evaluation of any particular proposal or 
element of a proposal, including any potential measurement 
standards, will depend on a full analysis of the available 
information upon completion of that review.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                     FROM RANDAL K. QUARLES

Q.1. Section 402 of the Economic Growth, Regulatory Relief, and 
Consumer Protection Act instructed bank regulators to issue a 
rule exempting custody banks' cash deposits placed at central 
banks from the Supplemental Leverage Ratio calculation.
    When do you expect to implement Section 402?

A.1. As you indicate, the recent Economic Growth, Regulatory 
Relief, and Consumer Protection Act (EGRRCPA) legislation 
requires the Federal banking agencies to amend the 
supplementary leverage ratio as applied to custodial banks. The 
Federal banking agencies are actively working to issue a notice 
of proposed rulemaking and expect to issue it for public 
comment in the near future.
    The April 2018 proposal to recalibrate the enhanced 
supplementary leverage ratio standards assumed that the 
components of the supplementary leverage ratio used the capital 
rule's existing definitions of tier 1 capital (the numerator of 
the ratio) and total leverage exposure (the denominator); 
however, the definition of total leverage exposure will change 
for certain banking organizations, through the implementation 
of section 402. As the Federal Reserve Board (Board) and the 
Office of the Comptroller of the Currency noted in the April 
2018 proposal, significant changes to either component of the 
supplementary leverage ratio would likely necessitate 
reconsideration of the proposed recalibration, as the proposal 
was not intended to materially change the aggregate amount of 
capital in the banking system. Accordingly, staff is evaluating 
the April 2018 proposal in light of the statutory change, in 
addition to comments received on the proposal.

Q.2. Holding almost $5 trillion in U.S. banking and nonbanking 
assets, foreign banking organizations (FBOs) play an important 
role in the U.S. financial system and overall economy. FBOs 
operating within the U.S. and U.S. firms operating abroad 
should compete on a level playing field. For that reason, I was 
encouraged to learn that you intend to review and possibly 
update regulations applicable to FBOs early in 2019. 
Previously, you have highlighted Total Loss-Absorbing Capital 
(TLAC) requirements for the intermediate holding companies 
(IHCs) of FBOs as worthy of review.
    Will TLAC requirements be a part of your 2019 efforts?
    If so, what are your plans to tailor and streamline 
internal TLAC and long-term debt requirements?

A.2. In October 2018, the Board issued notices of proposed 
rulemaking (NPR) to tailor certain prudential standards for 
domestic banks. The Board plans to develop a separate proposal, 
for public comment, relating to foreign banking organizations 
(FBOs) and their U.S. operations. The October 2018 NPRs did not 
modify the Total Loss-Absorbing Capital (TLAC) requirements for 
U.S. firms; the specific content of a forthcoming FBO tailoring 
NPR remains under consideration.

Q.3. Finally, are you considering adjusting the January 1, 
2019, compliance date currently in effect?

A.3. In the remarks I gave on May 16, 2018, I noted that the 
Board should consider whether the internal TLAC calibration for 
intermediate holding companies (IHCs) could be adjusted to 
reflect the practice of other regulators without adversely 
affecting resolvability and U.S. financial stability. This 
matter remains under consideration and the Board continues to 
monitor relevant developments in other jurisdictions. The 
Board's rule establishing TLAC, long-term debt, and clean 
holding company requirements for U.S. IHCs of foreign global 
systemically important banks became effective as of January 1, 
2019. Any change to the internal TLAC requirements for IHCs, or 
any other aspect of the rule, would need to be adopted through 
the normal public rulemaking process.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                     FROM RANDAL K. QUARLES

Q.1. FINRA Rule 4210--Two years ago, I sent a letter to the SEC 
expressing concern about FINRA Rule 4210, which established 
margin requirements on To-Be-Announced (TBA) securities such as 
mortgage-back bonds. The key problem here is that rule 4210 
applies to broker-dealers but NOT to banks. Thus broker-dealers 
can use their banking arm to evade this requirement, creating 
an uneven playing field. Earlier this year, Federal Reserve 
staff confirmed this ``inequity'' in a call with my staff.
    Last April, we spoke about this rule in a hearing with this 
Committee. You promised to review that rule to ensure it did 
not create an unequal playing field between small and medium 
broker-dealers and large, bank-affiliated broker-dealers. I'm 
sure we agree that restricting market competition isn't good 
for anyone except the privileged few banks that would gain 
business. The day after that hearing, FINRA delayed rule 4210 
until March of 2019.
    What steps can the Fed take to ensure that rule 4210 does 
not create an unequal playing field between small and medium-
sized broker dealers and bank-affiliated broker dealers? Please 
list them.
    Do you agree that as implemented, rule 4210 creates an 
unequal playing field for the aforementioned financial 
institutions?

A.1. As you noted above in your question, the Financial 
Industry Regulatory Authority's (FINRA) Rule 4210 To-Be-
Announced (TBA) amendments are not scheduled to be implemented 
until spring 2019 at the earliest. In addition, recent action 
by FINRA suggests it is working towards reducing the rule's 
burden. For example, in September 2018, FINRA's Board approved 
revisions to its Rule 4210 TBA requirements that would 
eliminate the 2 percent maintenance margin requirement 
contained in the rule. FINRA's Board also approved revisions 
that would allow member firms to take a capital charge in lieu 
of collecting margin for mark to market losses, subject to 
specified limitations and conditions. \1\ These changes would 
substantially reduce possible inequities between FINRA firms 
and bank dealers. FINRA has not yet sought comment on these 
revisions, and the Federal Reserve is monitoring FINRA's 
efforts. If the final result creates an unequal playing field, 
we will work with fellow bank regulatory agencies to address 
disparities between FINRA firms and bank dealers in this area, 
taking into account the differences between them.
---------------------------------------------------------------------------
     \1\ See https://www.finra.org/industry/update-finra-board-
governors-meeting-092618.

Q.2. Mortgage Servicing Assets--As you know, many lenders 
prefer to keep the relationship with the customer via servicing 
the mortgage, even if the bank sells the mortgage itself. There 
has been a bipartisan view in Congress that the original rule 
on MSAs, which came out as part of the Basel process, was 
misguided and, indeed, punitive as applied to small and midsize 
banks. Many of us were encouraged when the regulators put out a 
proposal to change the existing rule. But that proposal came 
out over a year ago and still nothing has been done to finalize 
it. The current situation is driving mortgage servicing out of 
regulated entities and into unregulated ones, which I assume is 
not your objective.
    When can we expect a final rule on mortgage servicing 
assets to be issued?

A.2. As part of the 2017 Economic Growth and Regulatory 
Paperwork Reduction Act report, the Board of Governors of the 
Federal Reserve System (Board), the Office of the Comptroller 
of the Currency (OCC), the Federal Deposit Insurance 
Corporation (FDIC) (collectively, the agencies), and the 
National Credit Union Administration highlighted their intent 
to meaningfully reduce regulatory burden, especially on 
community banking organizations, while at the same time 
maintaining safety and soundness and the quality and quantity 
of regulatory capital in the banking system. Consistent with 
that objective, the agencies issued a proposal in 2017 to 
simplify certain aspects of the regulatory capital rules for 
nonadvanced approaches banking organizations, including a 
simplified treatment for mortgage servicing assets (MSAs) 
(simplifications proposal).
    The agencies are working jointly to implement Economic 
Growth, Regulatory Relief, and Consumer Protection Act 
(EGRRCPA), \2\ which addresses and supersedes aspects of the 
simplifications proposal. For example, the agencies recently 
issued a proposed rule to conform the regulatory capital 
treatment of certain acquisition, development, or construction 
loans to that under EGRRCPA. \3\ The agencies are actively 
considering the comments received on the simplifications 
proposal in the context of the changes made by the EGRRCPA.
---------------------------------------------------------------------------
     \2\ See, e.g., Interagency Statement Regarding the Impact of the 
Economic Growth, Regulatory Relief, and Consumer Protection Act (July 
6, 2018), available at https://www.fdic.gov/news/news/press/2018/
pr18044a.pdf.
     \3\ 83 Fed. Reg. 48,990 (Sept. 28, 2018).
---------------------------------------------------------------------------
    In addition, on November 21, 2017, the agencies finalized a 
rule to extend the current transition provisions in the capital 
rules for certain capital deductions that would be affected by 
the simplifications proposal. \4\ Thus, while the agencies 
continue to evaluate comments on the simplifications proposal, 
for most banking organizations, MSAs not deducted under the 
capital rules will continue to be subject to a 100 percent risk 
weight rather than the fully phased-in 250 percent risk weight.
---------------------------------------------------------------------------
     \4\ 82 Fed. Reg. 55,309 (Nov. 21, 2017). The final rule extended 
the transition provisions for banking organizations that are not 
subject to the capital rule's advanced approaches. Banking 
organizations subject to the capital rule's advanced approaches remain 
subject to the stricter requirements beginning on January 1, 2018.
---------------------------------------------------------------------------
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR ROUNDS
                     FROM RANDAL K. QUARLES

Q.1. In South Dakota, many farmers use derivatives to manage 
the risk of price disruptions due to any number of factors in 
the marketplace. Given the challenges that farmers are facing 
on several fronts, it's important that South Dakotans are able 
to access tools like derivatives in a way that's as cost-
effective as possible.
    When our farmers do choose to access derivatives markets 
they're required to provide margin against their derivative 
contracts. Banks hold that margin in the event the farmer can't 
meet their obligations, thereby reducing the risk of default 
for the bank and for the marketplace.
    Unfortunately the Fed's methodology for the leverage ratio 
doesn't recognize this reduced risk. As a result, an additional 
cost is imposed on farmers across the country when they hedge 
against price fluctuations.
    When will the Fed act on this issue and provide relief on 
client margin? Farmers are in need of relief wherever they can 
get it.
    I'm proud to be the Senate sponsor of S. 3577, the 
Financial Stability Oversight Council Improvement Act of 2018. 
As we continue to look at ways to make our financial system 
safer and more resilient, it's important that FSOC also 
regulates nonbanks based on the risk profile of a specific 
business or industry, not for the sake of regulation, and not 
based only on size.
    Last year the Treasury Department released a report 
recommending how FSOC can further improve the SIFI designation 
process for nonbank institutions. Similar to my interest in 
tailoring regulations, Treasury suggested that an activities-
based approach would be appropriate. I'm also pleased to hear 
reports that FSOC may be taking action on this front by the end 
of 2018.
    Can you elaborate on FSOC's forthcoming proposals?
    If you could, I'd like you to share some of the advantages 
to the activities-based approach that FSOC is considering.
    How will it help the Fed's work?
    And how will it help the economy more broadly?

A.1. In October 2018, the Federal Reserve Board (Board), along 
with the Federal Deposit Insurance Corporation (FDIC) and 
Office of the Comptroller of the Currency (OCC) (collectively, 
the Agencies), issued a proposal that would revise the capital 
rule to require banking organizations to use a more risk-
sensitive methodology known as the standardized approach for 
counterparty credit risk (SA-CCR) for reflecting derivative 
contracts in the supplementary leverage ratio. The Agencies 
believe that SA-CCR, which recognizes the shorter default risk 
horizon applicable to margined derivative contracts, provides a 
more appropriate measure of derivative contracts for leverage 
capital purposes than does the current approach. Analysis 
conducted by the Agencies indicates that, compared to the 
current methodology, the implementation of SA-CCR would 
increase covered banking organizations' supplementary leverage 
ratios.
    As noted in the proposal, the Agencies are sensitive to 
impediments to banking organizations' willingness and ability 
to provide client-clearing services. The Agencies also are 
mindful of the Dodd-Frank Wall Street Reform and Consumer 
Protection Act (Dodd-Frank Act) mandate to mitigate systemic 
risk and promote financial stability by, in part, developing 
uniform standards for the conduct of systemically important 
payment, clearing, and settlement activities of financial 
institutions. In view of these important, postcrisis reform 
objectives, the Agencies are inviting comment on the 
consequences of not recognizing collateral provided by a 
clearing member client banking organization in connection with 
a cleared transaction. The Agencies will carefully consider the 
comments received on the proposal.
    With respect to your second question on the Financial 
Stability Oversight Council (FSOC), the Council has been 
considering revisions to the interpretive guidance on the 
designation of nonbanks that include taking an activities-based 
approach (see, for example, the minutes of the June 15, 2018, 
FSOC meeting). \1\ Of course, any revisions to the FSOC's 
current guidance on the designation of nonbank financial 
institutions will have to be approved by the FSOC.
---------------------------------------------------------------------------
     \1\ See https://www.treasury.gov/initiatives/fsoc/council-
meetings/Documents/June152018
_minutes.pdf.
---------------------------------------------------------------------------
    In principle, an activities-based approach toward the 
designation of individual nonbank financial institutions would 
shift the focus toward reviewing potential risks to U.S. 
financial stability from a financial system perspective by 
examining financial activities and products throughout various 
industries. This approach offers some potential advantages, 
including the consideration of how certain activities 
undertaken by nonbanks could threaten financial stability and 
how best these threats could be addressed. In addition, such an 
approach could complement the FSOC's effort to monitor broader 
vulnerabilities in the U.S. financial system.
    In terms of helping the Federal Reserve's work, should a 
firm be designated and thus subject to supervision by the 
Federal Reserve, a clear statement from the FSOC of the 
particular activities of concern could help focus supervisory 
efforts to limit systemic risk. Further, the activities-based 
approach proposed in the November 2017 Treasury Department 
report \2\ could complement the Federal Reserve's monitoring of 
financial stability risks. The Board provided an overview of 
the framework it uses to monitor financial stability in the 
November 2018 Financial Stability Report. \3\ This framework 
focuses on monitoring vulnerabilities in the financial system, 
such as elevated valuation pressures, excessive leverage within 
the financial sector, excessive borrowing by businesses and 
households, and funding risks.
---------------------------------------------------------------------------
     \2\ See https://www.treasury.gov/press-center/press-releases/
documents/pm-fsoc-designations-memo-11-17.pdf.
     \3\ See https://www.federalreserve.gov/publications/files/
financial-stability-report-201811.pdf.
---------------------------------------------------------------------------
    Monitoring of financial vulnerabilities and activities that 
could pose a threat to U.S. financial stability could help 
regulators design policies to reduce the likelihood of 
financial market disruptions or of credit crunches.

Q.2. Thank you for the ongoing dialogue on the ``standardized 
approach for measuring counterparty credit risk'' rule in 
derivatives markets. I appreciate regulators enacting risk-
based rules in any sector of the economy.
    I understand that the Fed's goal was to follow the Basel 
Committee's approach when it was designing the SA-CCR rule. I 
also understand that the SA-CCR methodology as designed by the 
Basel Committee recognized that margin posted by derivative 
users reduces the risk of default. That being said, based on my 
review of the Fed's SA-CCR rule, I noticed that the Fed omitted 
the margin exposure provisions of the Basel SA-CCR rule.
    One of the purposes of implementing the Basel Committee's 
SA-CCR rule was to make American companies more competitive 
with our European counterparts, all of whom have implemented 
the Basel-driven version of SA-CCR.
    Why did the Fed choose not to include margin exposure in 
the U.S. SA-CCR rule?
    Will this lack of recognition on margin perpetuate the 
disparities between the U.S. and Europe and put our financial 
institutions at a disadvantage?

A.2. The proposal is generally consistent with the Basel 
Committee's standards on the recognition of margin in the risk-
based and leverage capital frameworks. In particular, the 
proposal to require use of SA-CCR in calculating the 
supplementary leverage ratio is generally consistent with the 
Basel Committee's standard on leverage capital requirements, 
which currently limits collateral recognition. The Agencies are 
sensitive to impediments to firms' willingness and ability to 
provide client-clearing services, and recognize the wide 
support for the migration of derivative contracts to central 
clearing frameworks. In particular, in October 2018, the Basel 
Committee issued a consultative document seeking views on 
whether to recognize collateral in their leverage capital 
requirement. \4\ Accordingly, the Agencies are inviting comment 
on the consequences of not recognizing collateral provided by a 
clearing member client banking organization in connection with 
a cleared transaction. The Agencies will carefully consider 
each comment on the proposal.
---------------------------------------------------------------------------
     \4\ See Consultative Document, ``Leverage Ratio Treatment of 
Client Cleared Derivatives'', Basel Committee on Banking Supervision, 
October 2018, available at https://www.bis.org/bcbs/publ/d451.pdf.

Q.3. As you know, Section 402 of S. 2155 exempted the cash 
deposits of custody banks held at central banks from the 
supplemental leverage ratio.
    Can you give us an update on when section 402 will be 
implemented?
    And can you shed a bit more light into how this section of 
the law will interact with changes to the supplemental leverage 
ratio that the Fed announced back in April?
    Balancing these two priorities is important given that 
regulatory changes announced in April could potentially blunt 
the impact of S. 2155.

A.3. As you indicate, the recently enacted Economic Growth, 
Regulatory Relief, and Consumer Protection Act (EGRRCPA) 
requires the Federal banking agencies to amend the 
supplementary leverage ratio as applied to custodial banks. The 
Federal banking agencies are actively working to issue a notice 
of proposed rulemaking and expect to issue it for public 
comment in the near future.
    The April 2018 proposal to recalibrate the enhanced 
supplementary leverage ratio standards assumed that the 
components of the supplementary leverage ratio used the capital 
rule's existing definitions of tier 1 capital (the numerator of 
the ratio) and total leverage exposure (the denominator); 
however, the definition of total leverage exposure will change 
for certain banking organizations through the implementation of 
section 402. As the Board and OCC noted in the April 2018 
proposal, significant changes to either component of the 
supplementary leverage ratio would likely necessitate 
reconsideration of the proposed recalibration, as the proposal 
was not intended to materially change the aggregate amount of 
capital in the banking system. Accordingly, staff is evaluating 
the April 2018 proposal in light of the statutory change, in 
addition to comments received on the proposal. The Board also 
plans to implement the requirements of section 402 in the near-
term.

Q.4. I've reviewed remarks you gave at the Brookings 
Institution on November 9th and appreciate efforts you're 
undertaking to implement S. 2155 by tailoring capital and 
liquidity for banks based on risk. As the Senate lead on S. 
366, the TAILOR Act, I appreciate any and all steps our banking 
regulators take to tailor regulations to the risk profile and 
business model of a given institution as opposed to regulating 
based on arbitrary asset thresholds.
    During your remarks at Brookings you stated that S. 2155 
did not provide relief for large banks and that after the Fed 
finalizes its tailoring proposal it will turn its focus to 
other parts of our regulatory system.
    Can you shed a bit more light into what you meant by that?
    What issues will you be considering in your efforts to 
bring greater efficiency to our regulatory system?

A.4. The proposals approved by the Board for public comment on 
October 31, 2018, are designed to efficiently tailor prudential 
standards to the risks of large U.S. banking organizations 
while ensuring that firms maintain sufficient resources and 
risk management practices to be resilient under a range of 
economic conditions. \5\ The proposals build on the Board's 
existing tailoring of its rules and experience implementing 
those rules, and account for changes made by the EGRRCPA to the 
enhanced prudential standards requirements under section 165 of 
the Dodd-Frank Act.
---------------------------------------------------------------------------
     \5\ See https://www.federalreserve.gov/newsevents/pressreleases/
bcreg20181031a.htm.
---------------------------------------------------------------------------
    In the proposals, the Board stated its plans to propose at 
a later date similar amendments that would tailor capital 
planning and resolution planning requirements for large U.S. 
banking organizations. The Board also stated its plans to issue 
a separate proposal relating to foreign banking organizations 
that would implement section 401 of the EGRRCPA for these 
firms, take into account the structures through which these 
firms conduct business in the United States and reflect the 
principles of national treatment and equality of competitive 
opportunity.
    In addition, the Board in general aims to reduce 
unnecessary costs associated with and streamline regulatory 
requirements based on its experience implementing the rules and 
consistent with the statutory provisions that motivated the 
rules.

Q.5. The June 2017 Treasury Report on banks and credit unions 
recommended, ``The application of U.S. enhanced prudential 
standards to foreign banking organizations (FBOs) should be 
based on their U.S. risk profile, using the same revised 
threshold as is used for the application of the enhanced 
prudential standards to U.S. bank holding companies, rather 
than on global consolidated assets.''
    How will the Federal Reserve tailor its regulations 
according to this recommendation and the longstanding principle 
of national treatment?

A.5. The Board is in receipt of the June 2017 Department of 
Treasury report and has carefully reviewed its contents 
including its recommendations. As noted above, the Board is 
considering the appropriate way to assign the U.S. operations 
of foreign banking organizations to the categories of 
prudential standards described in the Board's October 31, 2018, 
proposal to tailor prudential standards for domestic firms, in 
light of the special structures through which these firms 
conduct business in the United States.

Q.6. Given that foreign regulators may retaliate against 
American institutions for overly aggressive actions taken by 
U.S. regulators, what steps will the Federal Reserve take to 
focus its tailoring on the risk profile of intermediate holding 
companies and not the branch networks of international banks, 
which are subject to regulation by their home countries?

A.6. In developing a proposal for foreign banking 
organizations, the Board will consider the special structures 
through which these firms conduct business in the United 
States. The Board's current enhanced prudential standards were 
designed to increase the resiliency of the U.S. operations of 
foreign banking organizations, including the U.S. branches and 
agencies of these firms. In developing the proposal, the Board 
will continue to consider the principles of national treatment 
and equality of competitive opportunity along with the extent 
to which a foreign banking organization is subject, on a 
consolidated basis, to home country standards that are 
comparable to those applied to financial companies in the 
United States.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TILLIS
                     FROM RANDAL K. QUARLES

Q.1. After Nasdaq became an exchange in 2006, it is my 
understanding that the Federal Reserve has not undertaken any 
effort to update its rules to provide a pathway to margin 
eligibility for companies traded over-the-counter (OTC). Margin 
eligibility of OTC-traded stocks can be an important part of 
the growth of small and emerging companies, as it helps to 
improve the market quality of those securities, impact an 
investor's willingness to purchase those securities, and as a 
result have a direct impact on capital formation. In addition, 
U.S. investors in the American depositary receipts (ADR) for 
Roche ($10bn yearly net income) and other large, international 
OTC traded firms are also negatively impacted by the Federal 
Reserve's inaction on this issue.
    Will the Federal Reserve take action to revive the margin 
list for certain OTC securities? If not, please explain why.

A.1. Responding to your question above and as previously posed 
regarding the List of Over-the-Counter Margin Stocks (OTC List) 
that is no longer published by the Federal Reserve Board 
(Board), staff have continued to monitor OTC market 
developments in the years since the publication of the OTC List 
ceased. Any expansion of the types of securities that are 
margin eligible would require careful consideration by the 
Board of the benefits of such an approach weighed against 
potential increased burden on banks and other lenders.
    Please know that I appreciate your concerns as noted in 
your questions, and we are looking into potential approaches 
that may be considered while ensuring any changes would not 
pose additional regulatory burdens. By way of background, I am 
including a brief summary of the history of the Board's OTC 
List.
    In 1968, Congress amended section 7 of the Securities 
Exchange Act of 1934 (SEA) to allow the Board to regulate the 
amount of credit that may be extended on securities not 
registered on a national securities exchange, or those 
securities known as ``over-the-counter'' or ``OTC'' securities. 
The following year, the Board adopted criteria to identify OTC 
stocks that have ``the degree of national investor interest, 
the depth and breadth of market, the availability of 
information respecting the security and its issuer, and the 
character and permanence of the issuer'' to warrant treatment 
similar to equity securities registered on a national 
securities exchange. The Board's first periodically published 
OTC List became effective on July 8, 1969.
    In 1975, Congress further amended the SEA to direct the 
Securities and Exchange Commission (SEC) to facilitate the 
development of a ``national market system'' (NMS) for 
securities to accomplish several goals, including price 
transparency. The SEC's criteria for NMS securities came to 
cover both exchange-traded stocks (which were always 
marginable) and a subset of stocks traded on Nasdaq, the 
largest and most technologically advanced over-the-counter 
market at that time. The majority of the securities traded on 
Nasdaq's NMS tier were covered by the Board's OTC margin stock 
criteria and appeared on the Board's OTC List. The Board's 
analysis, however, indicated that the liquidity and other 
characteristics of NMS securities generally compared favorably 
with those of exchange-traded securities. Accordingly, the 
Board amended its margin regulations in 1984 to give immediate 
margin status to OTC securities that qualified as NMS 
securities without regard to whether the stock appeared on the 
Board's OTC List. This action established a precedent for 
relying on NMS status under SEC rules as a substitute for 
identifying margin-eligible OTC securities through the 
application of Board established criteria.
    The Board ceased publication of its OTC List in 1998, and 
provided margin status to all securities listed on the Nasdaq 
Stock Market, after Nasdaq raised the listing standards for 
non-NMS securities trading on its market, making them 
comparable to those traded on national securities exchanges. 
Indeed, Nasdaq subsequently became a national securities 
exchange.

Q.2. In previous reports on the state of supervision and 
regulation, you have stated, ``the Federal Reserve relies to 
the fullest extent possible'' on State insurance departments in 
the supervision of Insurance Savings & Loan Holding Companies 
(ISLHC) and that you have worked closely with State officials 
and the National Association of Insurance Commissioners (NAIC) 
to maximize supervisory efficiencies and avoid duplication. I 
continue to hear from my constituents and insurance companies 
in my State that ``tailoring'' is not occurring. It is 
difficult to point to a single specific action the Federal 
Reserve has taken to tailor for these companies, and they 
continue to exit the business of banking, with several exits in 
the last year.
    Is the Federal Reserve concerned about this trend?
    What specific further actions will the Federal Reserve take 
to make sure that ISLHCs are not being driven from the business 
of banking by inefficient and overly burdensome regulation?

A.2. In supervising insurance savings and loan holding 
companies (ISLHCs), the Federal Reserve has aimed to develop 
policies that are insurance-centric and appropriate for the 
insurance business and regulatory environment. For instance, 
the Board's advance notice of proposed rulemaking on insurance 
capital requirements set out two frameworks for capital 
standards that are each unlike the Board's capital rules for 
bank holding companies. \1\ The Federal Reserve recognizes that 
ISLHCs have multiple functional regulators and that State 
insurance regulators are the primary functional supervisors of 
the insurance companies. In supervising the consolidated 
insurance organization, the Federal Reserve remains committed 
to working cooperatively with State insurance regulators to 
reduce the potential for duplication and undue burden of 
supervisory activities. The Federal Reserve also tailors its 
supervisory activities and guidance to account for the unique 
characteristics, organizational and regulatory structures 
associated with ISLHCs. Examples of tailoring for these 
companies include the Board's exemption of ISLHCs from Federal 
Reserve consolidated capital, stress testing and liquidity 
rules which are generally applicable to banking organizations.
---------------------------------------------------------------------------
     \1\ Capital Requirements for Supervised Institutions Significantly 
Engaged in Insurance Activities, 81 Fed. Reg. 38,631 (June 14, 2016), 
https://www.federalregister.gov/documents/2016/06/14/2016-14004/
capital-reguirements-for-supervised-institutions-significantly-engaged-
in-insurance-activities.
---------------------------------------------------------------------------
    Federal Reserve examination teams rely on State insurance 
regulators to the fullest extent possible for the assessment of 
insurance risks and activities. For example, supervisory 
evaluations and findings from State insurance regulators are 
incorporated into the Federal Reserve's consolidated 
supervision assessments. Federal Reserve examiners defer to 
State insurance regulators for the evaluation of insurance 
activities pertaining to insurance underwriting, reinsurance, 
reserving, market conduct, and compliance with State insurance 
laws.
    The Federal Reserve also coordinates with State insurance 
regulators through information sharing agreements and 
supervisory colleges. Additionally, Federal Reserve examination 
staff meet with each ISLHC's primary State insurance regulators 
to share supervisory information (e.g., inspection reports, 
supervisory plans), coordinate supervisory activities, and 
identify opportunities to leverage each agency's work to 
complement supervisory efforts and avoid duplication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                     FROM RANDAL K. QUARLES

Q.1. You recently made a speech about the Federal Reserve's 
``Stress Capital Buffer'' proposal, which makes significant 
changes to the annual supervisory Comprehensive Capital 
Analysis and Review (CCAR) administered by the Fed. You 
indicated that the Fed would make a second proposal in response 
to some industry comments.
    According your remarks, the Fed is considering allowing a 
firm to develop a capital distribution plan after its stress 
tests because ``firms have told us that they would be able to 
engage in more thoughtful capital planning if they had 
knowledge of that year's stress test results before finalizing 
their distribution plans for the upcoming year.''
    What evidence has the Fed received that firms will actually 
be more thoughtful rather than simply plan to distribute the 
maximum amount permitted by the stress tests, thereby 
outsourcing their capital decisions to the Fed?

A.1. Currently, and under the Stress Capital Buffer proposal, a 
firm must decide whether to increase or decrease its planned 
dividends and share repurchases for the upcoming year without 
knowledge of a key constraint: the results of the stress test. 
While this practice is intended to encourage firms to think 
rigorously about their capital uses and needs in developing 
their capital plans, it also introduces significant uncertainty 
into a firm's capital planning process.
    Adjusting the operation of the rule such that firms know 
their stress capital buffer before they decide on their planned 
distributions for the coming year would remove this 
uncertainty. This change would not change the expectation that 
firms continue to engage in meaningful capital planning and use 
their internal capital planning processes to set their planned 
capital distributions. The Federal Reserve would continue to 
use the supervisory process to evaluate the strength of each 
firm's capital planning process, including identifying its 
material risks and determining the capital necessary to 
withstand those risks during stressful conditions.

Q.2. You indicated in your speech that ``reducing volatility'' 
of stress test demands would be the goal of a future proposal. 
The purpose of a stress test is to determine how a firm will 
fare under an unanticipated shock.
    How is a goal of reducing or minimizing changes in stress 
test results to avoid ``management challenge'' to banks 
compatible with this purpose?

A.2. The supervisory stress test allows the Federal Reserve to 
assess the resilience of banking organizations under various 
economic stress scenarios. It is essential to the continued 
success of the stress test as a supervisory tool that we 
preserve the dynamism of the stress test, and we seek to 
balance this objective with other supervisory objectives in 
evaluating future proposals.
    One of these supervisory objectives is to mitigate 
excessive volatility in stress test results. It is typical for 
supervisory stress test results for a given firm to change 
year-over-year, as the scenarios and firms' portfolio 
characteristics change, and we want to maintain that feature.
    However, large changes in year-over-year stress test 
results, particularly those not driven by portfolio changes, 
can make it difficult for firms to engage in responsible 
capital planning.
    Maintaining the dynamism of the supervisory stress test 
need not be at odds with mitigating excessive volatility in 
supervisory stress test results. We are in the process of 
carefully considering how to achieve an appropriate balance of 
these two goals in future proposals.

Q.3. The 2008 crisis created financial stress because firms 
were not anticipating significant losses from mortgage-backed 
securities, which were assumed to be relatively safe assets 
until unanticipated losses rapidly materialized over the 2007-
2008 period. Over that period banks were permitted to return 
about a hundred billion in capital to shareholders, which later 
had to be made up by taxpayers through public capital 
injections.
    How will a low-volatility stress test effectively require 
banks to preserve capital during such sharp turns in the 
market?

A.3. Mitigating excessive volatility in loss estimates, and 
estimates of poststress capital, need not be synonymous with 
maintaining a static stress test that does not take emerging 
risks into the economic and financial environment into account.
    Indeed, it is essential to the continued success of the 
stress test as a supervisory tool that we preserve the dynamism 
of the stress test, and we seek to balance this objective with 
other supervisory objectives in evaluating future proposals.
    The severely adverse scenario used in the Board's annual 
stress test reflects a sharp deterioration in macroeconomic and 
market conditions, similar to what we experienced during the 
2007-2008 period.
    Several elements of the Federal Reserve's stress testing 
and scenario framework are geared toward capturing shifts in 
the economic environment and in firms' risk profiles. These 
types of shifts would continue to be captured in the 
supervisory stress test results. Specifically, supervisory 
models are regularly reestimated with newly available data, and 
the Board's scenario design framework allows for the 
incorporation of salient risks to the current economic outlook. 
Further, the Federal Reserve's supervisory modeling policies 
seek to limit reliance on past outcomes, so that supervisory 
models can incorporate events or outcomes outside of historical 
experience.

Q.4. You also indicated that the Fed would begin to ``disclose 
additional detail about supervisory stress tests models and 
results . . . allow[ing] firms to benchmark the results of 
their own models against those of the supervisory models.''
    Won't a lower-volatility stress test in which details of 
models and assumptions are widely known result in a system 
where stress tests are functionally equivalent to the Basel III 
risk-based capital rules? If so, what would be the 
justification for having multiple systems of risk-based 
capital?

A.4. Maintaining the dynamism of the supervisory stress test--
and therefore its distinction from the Basel III risk-based 
capital rules--is one of our key objectives, and need not be at 
odds with mitigating excessive volatility in supervisory stress 
test results. Supervisory stress test results for a given firm 
will continue to change year-over-year, as the scenarios and 
firms' portfolio characteristics change. We seek to reduce 
potentially excessive changes in year-over-year stress test 
results, which can make it difficult for firms to engage in 
responsible capital planning.
    We believe that the additional model disclosures that we 
proposed late last year appropriately increase the degree of 
transparency into supervisory models while preserving the 
dynamism of the exercise.
    In evaluating future proposals, we will continue to 
consider how best to achieve an appropriate balance of the 
objectives of mitigating excessive volatility in capital 
requirements and preserving the dynamism of the stress test 
exercise.

Q.5. The Fed is apparently also considering seeking the 
public's ``input on scenarios and salient risks facing the 
banking system each year,'' providing another opportunity for 
interested parties to shape the stress tests. Under the current 
framework, the scenarios are determined by the Fed's 
economists, with input from the reserve banks.
    Have you lost confidence in the ability of these experts to 
foresee risks and develop effective stress test scenarios? If 
not, what is the value of allowing industry actors to influence 
the tests they will receive?

A.5. The stress test provides a forward-looking measurement of 
bank capital, a view of common and systemic risks across the 
banking sector, and a broader understanding of the health of 
the financial system. By helping us ensure that the largest 
firms have sufficient capital to absorb losses and continue to 
lend in stressful conditions, the stress test helps to reduce 
the potential that distress from a single large firm will spill 
over to the broader economy. The results are valuable for 
markets, analysts, and ultimately, the participating firms.
    The Federal Reserve Board's (Board) supervisory stress test 
independently assesses the resilience of the financial system 
under stress. I believe that our ability to provide an 
independent view of capital adequacy enhances the credibility 
of the test and of our supervisory program. Our independent 
assessment of poststress capital relies on models and scenarios 
developed by Federal Reserve staff, which is comprised of a 
wide range of experts that drive innovation in their fields. 
Across the Federal Reserve System, our diverse workforce 
publishes a wide range of economic and policy research and 
plays an active role in academic discourse.
    Yet we recognize that we are not, and cannot be, a monopoly 
on insight and wisdom. In the past, the Board has sought and 
benefited from multiple and diverse perspectives on elements of 
its stress testing program. For example, the Board recently 
invited public comment on principles governing stress test 
model design and amendments to further clarify the scenario 
design framework. Through that process, we received valuable 
feedback which we incorporated in the finalized amendments.
    We will continue to push the frontier of stress testing, 
through our own research and through the insights we gain from 
our engagement with the public. We recently announced that we 
will host a stress testing conference in July that will be open 
to the public. During the conference, we expect that a number 
of diverse stakeholders, including academics, public interest 
representatives, and financial sector representatives, will 
share their thoughts on certain aspects of the stress test 
program, including our current approach to scenario design.

Q.6. In the recent stress capital buffer (SCB) proposal, you 
shifted the stressed leverage ratio requirement from the 
supplemental leverage ratio to the less stringent Tier 1 
leverage ratio. In your recent speech you then proposed to 
eliminate the stressed leverage ratio requirement altogether. 
You justified elimination of this requirement by claiming that 
including the leverage ratio in the stress tests made the 
operational effect of the leverage ratio more dependent on 
modeled risks.
    But won't eliminating the stressed leverage ratio 
altogether significantly increase the role of risk modeling and 
risk weights in the capital system?
    Could you please provide information on how many firms 
experienced the current stressed leverage ratio requirement to 
be their binding or most significant constraint in the stress 
test process?

A.6. The Board's notice of public rulemaking entitled 
Amendments to the Regulatory Capital, Capital Plan, and Stress 
Test Rules \1\ issued in April 2018 sought comment on the 
introduction of a stress leverage buffer requirement in 
addition to the current capital rule's 4 percent minimum tier 1 
leverage ratio requirement. However, the stress buffer concept 
would not be extended to the supplementary leverage ratio. Our 
analysis indicates that the stressed supplementary leverage 
ratio was the binding constraint for one firm based on the 
results of the Comprehensive Capital Analysis Review 2018.
---------------------------------------------------------------------------
     \1\ https://www.govinfo.gov/content/pkg/FR-2018-04-25/pdf/2018-
08006.pdf
---------------------------------------------------------------------------
    Leverage ratios are intended to function as a backstop to 
traditional risk-based capital requirements. Whether or not 
there is an additional stress leverage buffer, global 
systemically important banks would continue to remain subject 
to the capital rule's enhanced supplementary leverage ratio 
standards so leverage capital requirements would continue to 
serve as a strong backstop. Board staff are currently reviewing 
all comments on the proposal and will carefully consider 
whether any changes to the proposed stress leverage buffer 
requirement or more generally are appropriate.

Q.7. Your remarks also indicated that you were motivated by the 
view that the ``[t]ransparency of the stress test and its 
inputs and outputs is key to the credibility of the stress 
test.''
    Does the Fed have any evidence that firms or the market 
aren't taking stress tests seriously under the current regime?

A.7. The Federal Reserve's stress test remains an effective 
supervisory tool. We believe it is important to seek public 
input and to assess ways to further enhance the test's 
effectiveness.
    Since the inception of the supervisory stress test, the 
Board has gradually increased the breadth of its public 
disclosure. By increasing the amount of information about the 
assessment that is available to the public, the Board has 
invited the public to engage and make an independent evaluation 
of the stress test's soundness. Since the supervisory capital 
assessment program exercise in 2009, incremental disclosures of 
supervisory models and results have benefited banking 
organizations and those seeking to understand the resilience of 
firms in times of economic stress. The December 2017 proposals 
to increase transparency of the supervisory stress test are the 
latest incremental step to increase disclosure.
    In evaluating each incremental disclosure, the Board 
considers how to disclose information about the stress tests in 
a manner that appropriately balances the costs and benefits of 
transparency. For example, we have not disclosed the full 
details of our models, in large part due to the Board's 
concerns about convergence of stress testing, which would make 
them less effective and would undermine the financial stability 
gains we have made. We also seek to guard against the risk of 
firms making modifications to their businesses that change the 
results of the stress test without changing the risks they 
face. This behavior could result in the stress test giving a 
misleading picture of the actual vulnerabilities faced by 
firms. It could also result in all firms increasing their 
holdings of assets that perform better in the supervisory 
stress test, which would make the financial system as a whole 
less diversified and more vulnerable to shocks.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
          SENATOR CORTEZ MASTO FROM RANDAL K. QUARLES

Q.1. Wells Fargo--Wells Fargo Bank admitted to creating more 
than 3.5 million accounts without customers' authorization. 
Wells Fargo forced hundreds of thousands of automobile loan 
customers to pay for unnecessary insurance policies, with the 
added expense leading some borrowers to default and lose their 
vehicles. Wells Fargo also admitted to charging improper fees 
to some mortgage borrowers. Wells Fargo did not offer help to 
870 mortgage borrowers that they were entitled; 545 of those 
borrowers had their homes taken from them in foreclosure 
proceedings. Three of them were from Nevada.
    In February, the Federal Reserve cited those and other 
issues when it ordered the bank to halt expansion until it can 
prove to regulators that it has systems in place to prevent 
consumer abuses.
    What issues remain with Wells Fargo leadership's 
remediation plan?
    Will the Fed object to Wells Fargo capital distribution 
plan until a remediation plan has been accepted and the consent 
decree released?
    Why did the Federal Reserve not use the Comprehensive 
Capital Analysis and Review process to object to Wells Fargo's 
capital distribution plan?

A.1. Thank you for your question. Please note that I have 
recused myself from participating in official matters specific 
to Wells Fargo, as detailed in a press release dated December 
15, 2017.

Q.2. The most recent news from Wells Fargo--870 mortgage 
borrowers not appropriately assisted--more than 500 wrongly 
foreclosed on--was reported AFTER the consent order was signed 
in February.
    Should we expect more problems of unfair, deceptive and 
abuse practices harming Wells Fargo's customers in the coming 
year? Does the Fed and other banking regulators feel they have 
a handle on the harmful practices at Wells Fargo?

A.2. Please see my response to Question 1.

Q.3. Is the asset cap the Fed put in place adequate for 
changing Wells Fargo's behavior?

A.3. Please see my response to Question 1.

Q.4. The Supervisory Reports states that that sales practices 
and incentive-based compensation is an area of priority. [p.27]
    What will the Fed do to change incentive pay and sales 
practices at banks?

A.4. As noted in the Federal Reserve Board's (Board) November 
2018 Supervision and Regulation Report, the Board conducted 
reviews of sales and incentive compensation practices at 
certain State member banks with total assets between $10 
billion and $50 billion. The reviews identified acceptable 
practices. When exceptions were noted, however, findings were 
determined to be correctable in the normal course of business.
    Through our existing supervisory process, we will continue 
to monitor firms' progress towards appropriately balancing 
risks concerning sales and related incentive compensation 
practices.

Q.5. What is the status of the Incentive-based compensation 
rule mandated by the Dodd-Frank Wall Street Reform and Consumer 
Protection Act? I would note that this is a mandatory law, not 
discretionary.

A.5. In June 2016, the Board, Office of the Comptroller of the 
Currency (OCC), the Federal Deposit Insurance Corporation 
(FDIC), the Securities and Exchange Commission (SEC), the 
National Credit Union Administration (NCUA), and the Federal 
Housing Finance Agency (collectively, the agencies), jointly 
published and requested comment on a proposed rule under 
section 956 of the Dodd-Frank Wall Street Reform and Consumer 
Protection Act. This joint effort proposed several requirements 
to address incentive compensation arrangements. The agencies 
received over 100 comments on the proposed rule. Development of 
a final rule on an interagency basis in light of those comments 
is now under active work by the agencies.
    The Federal Reserve continues to evaluate incentive 
compensation practices as a part of ongoing supervision. This 
supervision has focused on the design of incentive compensation 
arrangements; deferral and risk adjustment practices (including 
forfeiture and clawback mechanisms); governance; and the 
involvement of the firm's controls and control function groups 
in various aspects of incentive compensation arrangements.
    The Board's supervision focuses on encouraging robust risk 
management and governance around incentive compensation 
practices rather than prescribing amounts and types of pay and 
compensation.

Q.6. Bank Secrecy Act/Anti- Money Laundering--In the Fed's 
Supervisory Report released last week, you note that of the 
supervisory findings currently outstanding, nearly 20 percent 
relate to weaknesses in BSA/AML programs. [p.26]
    Can you be more specific about how ``machine-based 
learning'' could help banks more easily comply with the Bank 
Secrecy Act?

A.6. Some banks are becoming increasingly sophisticated in 
their approach to Bank Secrecy Act/Anti- Money Laundering (BSA/
AML) compliance, and machine learning features prominently 
among the types of new technology that banks have been 
exploring in recent years. Machine learning can have many 
different applications, for example, some banks have 
experimented with this technology as a way to identify 
potentially suspicious patterns in transaction data at a 
reduced cost to the institution. While machine learning has the 
potential to enhance suspicious activity monitoring and other 
BSA/AML compliance processes, the use of this technology is at 
an early stage. The Federal Reserve does not advocate a 
particular method to comply with the BSA and believes that, as 
a general matter, institutions should consider a broad range of 
factors when considering new approaches to BSA/AML compliance 
such as performance, cost, and security of a particular 
technology. Any such processes should be transparent and 
reproducible so that banks and examiners understand how the 
system meets regulatory requirements. When developing 
innovative approaches, banks must continue to meet their BSA/
AML compliance obligations.

Q.7. Are the banking regulators working with FinCEN on future 
joint guidance? What would such guidance include? What impact 
would the guidance have under the new decision that guidance 
does not have the force of law?

A.7. In December 2018, the Federal Reserve Board (Board) issued 
a joint statement with the Office of the Comptroller of the 
Currency, the Federal Deposit Insurance Corporation, the 
National Credit Union Administration, and the Financial Crimes 
Enforcement Network that encourages depository institutions to 
explore innovative approaches to meet their BSA/AML compliance 
obligations and to further strengthen the financial system 
against illicit financial activity. \1\ The statement 
recognizes that new technologies may help banks to more 
efficiently identify and report money laundering, terrorist 
financing, and other illicit financial activity.
---------------------------------------------------------------------------
     \1\ See https://www.federalreserve.gov/newsevents/pressreleases/
bcreg20181203a.htm.
---------------------------------------------------------------------------
    While the statement encourages banks to explore new ways of 
using their existing tools or adopting new technologies to meet 
their BSA/AML compliance obligations, the statement is not 
itself binding and expressly recognizes that some financial 
institutions may not have the means or ability to innovate. In 
addition, the statement makes clear that the Federal Reserve 
will not penalize banks that maintain effective anti- money 
laundering programs but choose not to pursue innovative 
approaches.

Q.8. Merger and Acquisition Risk--In the Fed's Supervisory 
Report released last week, you note that upcoming Regional 
Banking Organizations Supervisory Priorities include merger and 
acquisition risks. A number of banking experts said that 
reducing the capital requirements and other rules for banks 
above $50 billion would lead to more bank mergers.
    Do you expect to see more bank mergers this year and next 
year than the past few years? Can you estimate the number of 
bank mergers you expect in 2019?

A.8. When reviewing a bank holding company application or 
notice that requires approval, the Federal Reserve considers 
the financial and managerial resources of the applicant, the 
future prospects of both the applicant and the firm to be 
acquired, financial stability factors, the convenience and 
needs of the community to be served, the potential public 
benefits, the competitive effects of the proposal, the 
applicant's compliance with laws and regulations, and the 
applicant's ability to make available to the Federal Reserve 
information deemed necessary to ensure compliance with 
applicable law.
    Once a merger or application has been approved, we follow 
merger and acquisition (M&A) activity within the regional 
banking portfolio \2\ chiefly to assess operational risk as the 
acquirers integrate the new operations into their consolidated 
organization.
---------------------------------------------------------------------------
     \2\ For supervisory purposes, the Federal Reserve generally 
defines regional banking organizations as those with total assets 
between $10 billion and $100 billion.
---------------------------------------------------------------------------
    We continue to see significant M&A activity within the 
portfolio, and indeed the regional banking portfolio has grown 
as banking companies under $10 billion in assets accelerate 
their growth across that size threshold by performing 
acquisitions.
    We do expect M&A activity within the regional banking 
portfolio to continue, but any estimate of the projected level 
of this activity would be pure speculation, as it will depend 
on many different market factors.

Q.9. How much of merger activity is due to changes from S. 2155 
and bank regulator actions to reduce some rules?

A.9. The Economic Growth, Regulatory Relief, and Consumer 
Protection Act (EGRRCPA), enacted in May 2018, raised the asset 
threshold at which certain prudential standards apply from $50 
billion to $100 billion. The new law also changed the asset 
threshold for a small bank holding company from $1 billion to 
$3 billion. Anecdotal evidence suggests that the former 
thresholds may have provided a merger disincentive to banks to 
grow beyond that point. At this time, the Federal Reserve does 
not have any specific evidence to indicate that merger activity 
has materially increased due to changes from EGRRCPA.

Q.10. Since you note risks to regional banks arising from 
mergers and acquisitions, what are those risks?

A.10. As noted in my response to 5(a), when reviewing a bank 
holding company application or notice that requires approval, 
the Federal Reserve considers the financial and managerial 
resources of the applicant, the future prospects of both the 
applicant and the firm to be acquired, financial stability 
factors, the convenience and needs of the community to be 
served, the potential public benefits, the competitive effects 
of the proposal, the applicant's compliance with laws and 
regulations, and the applicant's ability to make available to 
the Federal Reserve information deemed necessary to ensure 
compliance with applicable law.
    Once a merger or application has been approved, we follow 
M&A activity within the regional banking portfolio chiefly to 
assess operational risk as the acquirers integrate the new 
operations into their consolidated organization. Operational 
risks during integration can involve almost any aspect of 
running a bank, but the one that gives the greatest supervisory 
concern is compatibility of information technology systems. The 
acquiring bank needs to ensure that the transition is smooth 
across all balance sheet and income statement accounts, that 
customers are not inconvenienced or exposed to errors as the 
accounts are integrated, and that management information 
systems (MIS) used for internal reporting--MIS that generates 
metrics on credit, liquidity, and market risks for example--
accurately capture the new consolidated entity.

Q.11. Liquidity Coverage Ratio/Stress Tests--Banks are required 
to retain enough assets they can easily convert to cash to 
cover 30 days of expenses. You recommend reducing this cash 
cushion for all but the largest banks by revisions to the 
Liquidity Coverage Ratio. You say the reduction is minimal. 
Others say it is large and significant. Your Federal Reserve 
colleague, Governor Lael Brainard says it ``weakens the buffers 
that are core to the resilience of our system.''
    How will you know if your analysis is wrong? How will you 
know if banks have less capital than prudent based on these 
regulatory changes you propose?

A.11. The Board's liquidity framework for large banking 
organizations has two general components: standardized 
measures, such as those included in the liquidity coverage 
ratio rule or net stable funding ratio proposed rule, and firm-
specific measures, such as liquidity risk management 
requirements and internal liquidity stress testing 
requirements.
    The recent proposals to further tailor prudential standards 
would reduce or remove standardized liquidity requirements for 
some firms, but they would retain the firm-specific measures 
for all firms with $100 billion or more in total assets. As a 
result, the proposals would continue to require these firms to 
meet liquidity risk management standards, conduct internal 
liquidity stress tests, and hold a buffer of highly liquid 
assets sufficient to meet projected 30-day stressed cash flow 
needs under internal stress scenarios. The proposals would also 
require these firms to maintain regulatory reporting of key 
liquidity data, which facilitates the Board's supervision of 
liquidity-related risks. In addition, the Board will continue 
to assess the safety and soundness of firms in the normal 
course of supervision.
    Taken together, these firm-specific standards and data 
reporting requirements will allow supervisors to continue to 
achieve regulatory objectives while improving upon the 
simplicity, transparency, and efficiency of the regime. In this 
manner, the proposals build on the Board's existing practice of 
tailoring regulatory requirements based on the size, 
complexity, and overall risk profile of banking organizations.

Q.12. If banks or their trade associations start taking the 
Federal Reserve to court due to their differences in how the 
tailoring worked, a stress test result or a cost-benefit 
analysis they do not agree with, will you feel your analysis 
was wrong?

A.12. The Board takes seriously the importance in the 
rulemaking process of seeking comment from the public, 
carefully considering those comments, and assessing the costs 
and benefits of its rulemaking efforts. The Board believes 
strongly that public comment and cost-benefit analysis can 
enlighten our regulatory actions and inform the implementation 
of our statutory responsibilities. In addition to seeking 
public comment on its proposals, the Board often collects 
impact information directly from parties that may be affected. 
Under the Board's current practice, consideration of costs and 
benefits occurs at each stage of the regulatory or policymaking 
process. Recent examples of the publication of quantitative 
analyses in connection with its rulemakings include the global 
systemically important bank (G-SIB) surcharge rule, the single-
counterparty credit limit rule, and the long-term debt rule.
    The Board has established processes that allow institutions 
to respond to and appeal certain types of administrative 
actions, such as stress test results. In addition, the 
Administrative Procedure Act (APA) provides for judicial review 
of final regulations issued by the Board. Affected firms have 
the legal right to challenge the actions of any administrative 
agency under the APA, including whether the agency has engaged 
in reasoned decision making. Although the Board strives to 
robustly support all of its supervisory and regulatory actions, 
these appeal and judicial review processes help to ensure fair 
and effective implementation of our statutory responsibilities, 
consistent with applicable administrative requirements.

Q.13. This isn't just one weakening of buffers. There are 
numerous reductions at from several rulemakings that I think 
collectively have a material effect in weakening safeguards. 
Are you concerned that this ``death by a thousand cuts'' will 
result in much less of a capital cushion for banks that may 
find themselves in trouble in the future?

A.13. Reforms implemented since the financial crisis have 
resulted in substantial gains in the resiliency of large 
banking organizations and the financial system as a whole. The 
proposals issued in October 2018 and April 2019, seek to tailor 
the Board's prudential requirements for certain U.S. banking 
organizations and foreign banking organizations in accordance 
with the risk profiles of these firms while still maintaining 
the core reforms and gains made over the past decade.
    For liquidity standards, the proposals would continue to 
ensure that firms with the most significant risk profiles are 
subject to the most stringent liquidity requirements. For 
example, all U.S. G-SIBs and firms with very substantial size 
or cross-jurisdictional activity would be subject to the full 
liquidity coverage ratio and proposed net stable funding ratio 
requirements. The proposals would also require any firm with a 
high reliance on unstable short-term wholesale funding to meet 
the full requirements. This distinction would reflect these 
firms' elevated vulnerability to liquidity risk, and help to 
reduce the risk of asset fire sales that could transmit 
distress to other market participants and destabilize the 
system.
    As noted in my response to question 6(a), all firms with 
assets greater than $100 billion will continue to be subject to 
firm-specific liquidity requirements. As a result, these firms 
will still be required to conduct internal stress tests and 
hold liquidity buffers sufficient to meet projected 30-day net 
stressed cash-flow needs.
    Further, with respect to capital, the proposals do not 
modify capital requirements of the largest, most systemically 
important banking organizations (U.S. G-SIBs and banks either 
that are very large or have substantial cross-jurisdictional 
activity). The proposals may result in an adjustment of capital 
requirements for smaller, less-systemic firms, although the 
impact on capital levels for these firms could vary under 
different economic and market conditions. The proposals also 
would also lower these firms' compliance costs. As a result, 
the proposed requirements would reduce costs appropriately for 
those firms that have a limited impact on the financial system 
as a whole, relative to firms with more significant systemic 
footprints.

Q.14. While you praise transparency in regulation, some warn 
that providing the textbook prior to the test or describing 
rigorous requirements for regulation allows banks to skirt the 
law in areas not yet covered. For example, there was probably 
little oversight of cryptocurrencies yet they have become a 
huge problem with Initial Coin Offering frauds. How will your 
focus on transparency avoid giving banks the option to make an 
argument that they not be tested or held accountable for 
something not clearly defined in the rules?

A.14. Issuing clear regulations is fundamental to the 
legitimacy of democratically accountable institutions and is 
central to the Federal Reserve's mission; regulated firms have 
a right to know the specific requirements that apply to them. 
While the Board is aware that prescriptive regulation may not 
capture all potentially harmful activity undertaken by 
regulated firms, the Board's comprehensive supervisory regime 
is designed to identify such activity before it poses harm to a 
firm or to financial stability, and the Board also relies on 
its general safety and soundness authority \3\ to address such 
activity.
---------------------------------------------------------------------------
     \3\ 12 CFR part 208, subpart J, appendix D-1.

Q.15. Standard & Poor's and Moody's stated that weakening bank 
requirements is a credit negative for bank bond investors. An 
S&P report said ``the Fed's proposals are incrementally 
negative for bank creditors.'' Moody's report stated that the 
``reduced frequency of capital and liquidity stress testing 
could lead to more relaxed oversight and afford banks greater 
leeway in managing their capital and liquidity stress testing 
could lead to more relaxed oversight and afford banks greater 
leeway in managing their capital and liquidity, as well as 
reduce transparency and comparability, since fewer firms will 
participate in the public supervisory stress test.'' Do you 
concur with two of the Credit Rating Agencies that your 
proposals--reducing or recalibrating capital requirements and 
---------------------------------------------------------------------------
stress tests--are ``credit negative''? Why or why not?

A.15. The proposed adjustments to the Board's capital and 
liquidity requirements are designed to efficiently tailor 
prudential standards to the risks of large banking 
organizations while ensuring that firms maintain sufficient 
resources and risk management practices to be resilient under a 
range of economic conditions. They are intended to maintain and 
support the postcrisis increases in resiliency.
    In regard to capital and liquidity requirements, including 
capital and liquidity stress testing requirements, the Board is 
focused on reducing the complexity of the requirements in a way 
that does not materially lower the aggregate amount of total 
loss absorbing capacity maintained by banking organizations 
supervised by the Board. In addition, the Board is focused on 
tailoring the capital and liquidity prudential standards so 
that they are more reflective of the variety of business models 
and risk profiles observed across the industry, in a manner 
consistent with the requirements of EGRRCPA.
    Any adjustments to the Board's regulatory requirements will 
be coupled with the Board's continued commitment to strong 
supervision, and expectation that financial institutions manage 
their risks and maintain sufficient capital and liquidity to 
continue operations under stressed conditions.

Q.16. Community Reinvestment Act and Regulatory Coordination--
In your response to my questions for the record last Spring, 
you neglected to answer one of my questions.
    Which, if any recommendation from the Treasury Department 
or Comptroller Otting do you disagree with regarding the 
Community Reinvestment Act?

A.16. Recommendations offered by the Treasury Department and 
Comptroller Otting on opportunities to modernize the Community 
Reinvestment Act (CRA) regulations have contributed to valuable 
analysis and dialogue among the agencies, as well as input from 
the public. As I have stated previously, I support the goal of 
improving the current supervisory and regulatory framework for 
CRA based on feedback from industry and community stakeholders. 
We are reviewing the information the OCC has received in 
response to its advanced notice of proposed rulemaking on the 
CRA, as well as information gathered through the Federal 
Reserve's listening sessions at many of the Federal Reserve 
Banks around the country to determine whether there are steps 
we might take as regulators to come closer to both the letter 
and intent of the statute. That review is ongoing, and our 
evaluation of any particular proposal or element of a proposal 
will depend on a full analysis of the available information 
upon completion of that review.

Q.17. As the Vice Chair of Supervision at the Fed, can you 
explain why there appears to be less interagency coordination, 
and more controversial proposals being advanced, since you took 
over the Supervisory role at the Fed? What is the potential for 
reducing public confidence and certainty in the regulatory 
actions you and others are attempting to take quickly and 
unilaterally?

A.17. The Board consults and coordinates on a regular basis 
with its fellow bank regulatory agencies on a wide range of 
matters affecting depository institutions and their affiliates. 
This consultation and coordination facilitates a more cohesive 
regulatory framework, which is intended to promote the safety 
and soundness of the banking system in the most efficient and 
least burdensome way possible. The Board also consults 
regularly with the SEC, Consumer Financial Protection Bureau 
(CFPB), Commodity Futures Trading Commission (CFTC), OCC, FDIC, 
NCUA, and Treasury Department, in areas where regulatory 
responsibilities overlap. Coordination and cooperation with 
other agencies occurs at staff levels as well as through senior 
officers and members of the Board. In addition, the Board 
participates in the Federal Financial Institutions Examination 
Council (FFIEC) and in the Financial Stability Oversight 
Council, both of which facilitate interagency consultation and 
cooperation. These many avenues of consultation at multiple 
levels increase the coordination and consistency of regulation 
across a banking industry that has multiple regulators and 
charters.
    Many of the proposals and final rules issued by the Board 
in recent months have been issued in coordination with other 
agencies. Recent examples of proposed or final rules issued in 
coordination with the OCC and FDIC include amending the 
definition of high-quality liquid assets under the agencies' 
liquidity rules; expanding eligibility for an extended 
examination cycle for insured banks and branches of foreign 
banks; raising the threshold for residential real estate 
transactions requiring an appraisal; and tailoring of liquidity 
and capital requirements for large banking organizations. Other 
recent examples of proposals issued in coordination with the 
FDIC and OCC include a proposal to establish a community bank 
leverage ratio, a proposal to streamline reporting requirements 
for small institutions, and a proposal to exclude community 
banks from the Volcker rule. The agencies continue to work 
together to implement other provisions of S. 2155 and on other 
matters of common interest.

Q.18. Labor Market/Housing Market--The U.S. has seen consistent 
positive private sector job growth now for more than 100 
consecutive months. To what extent are these gains sustainable? 
What risks to the labor market do you see on the horizon?

A.18. As you noted, private sector payrolls have increased 
every month since the spring of 2010. The labor market remains 
strong, and I expect the expansion to continue, with further 
positive job gains.
    As always, there are risks to the outlook, and admittedly, 
recessions are hard to foresee. But many studies demonstrate 
that economic expansions do not end simply because they have 
persisted for a long time. Rather, some shock or collection of 
shocks occurs that is sufficient to push the economy into 
recession. At present, the banking system is well capitalized 
and highly liquid, and the Federal Reserve is committed to do 
everything we can to sustain the ongoing expansion. The Federal 
Reserve's recently inaugurated Financial Stability Report 
discussed risks and the resilience of our financial system in 
some detail. Other risks to the outlook could come from abroad, 
in the form of a material downturn to some of our trading 
partners or from the effects of Government policies, including 
trade policy and Brexit.
    While such downside risks are present, as reported recently 
in the Summary of Economic Projections, most Federal Reserve 
policymakers view the risks around our projections as balanced. 
Most importantly, policy is not on a preset course, and we will 
respond to changes in the economic outlook as warranted.

Q.19. More than half of renters pay more than \1/3\ of their 
income for rent. Nearly half of Americans cannot handle a $400 
emergency. What are your concerns about the housing market 
where prices are high and supply--both rental and home 
ownership--is inadequate in many communities? What should 
Federal policy makers do to increase the supply of affordable 
homes?

A.19. A healthy labor market is one of the most important 
factors helping families afford their housing costs. Our labor 
market is currently quite strong overall. The unemployment rate 
is at its lowest level in many decades, and the strong job 
market has encouraged more people to seek and hold jobs. 
According to aggregate statistics, however, house prices and 
rents have been rising well above the growth rate of aggregate 
disposable household income. Moreover, aggregate statistics can 
mask important differences across regions of the country. This 
is especially the case with housing markets, which have 
distinct geographic and local features. While an improving 
labor market has produced some easing in the share of 
households that are cost-burdened, the share of cost-burdened 
households remains elevated relative to the period before the 
financial crisis, and I share your concern over what this means 
for the households affected.
    Housing costs have been rising because of increasing costs 
of labor and materials and, importantly, the availability and 
cost of land for residential construction, which are in turn 
influenced by local conditions and regulation. The Federal 
Reserve tracks conditions in the housing market and has noted 
the challenges of adding directly to the supply of affordable 
housing. Each of the regional Federal Reserve Banks has an 
active, well-staffed community development function--one of the 
great benefits of the Federal Reserve's structure. We get 
important and timely information on the state of local economic 
and financial conditions, including those affecting low- and 
moderate-income, as well as other underserved, communities. Our 
community development staff at the Board and several Reserve 
Banks have conducted research to better understand housing 
affordability challenges, recognizing the importance of 
sufficient affordable housing to a community's economic 
vitality. We also conduct and disseminate research on policy 
and practice solutions. Increasingly we have been exploring the 
challenges of supplying affordable rental housing and the role 
of local land use and zoning policies.

Q.20. Banks Hoarding Interest Income as the Fed Raises Rates--
Since the Fed began raising interest rates, banks have seen a 
significant jump in net interest income and charged consumers 
more for loans, all while keeping the interest rate paid on 
customer deposits relatively flat. Why are depositors not 
getting higher interest rates?

A.20. Banks' profits are partly determined by the difference in 
interest expense they must pay on deposits and other 
liabilities and the interest they earn on their assets, 
including loans. Interest rates on bank deposits are determined 
by private markets, as are the interest rates on loans, bonds, 
and other financial savings and investment products. A 
significant share of banks' funding comes from customer 
deposits, for which banks must compete with other banks and 
nonbanks, such as money market mutual funds. Banks must also 
compete with other banks, nonbanks, and markets when setting 
lending rates for borrowers. Historically, we have seen that 
banks do not raise the rates they offer on customer deposits as 
much or as quickly as interest rates on other bank products, 
such as loans, when the Federal Reserve raises its policy rate. 
Moreover, the rate paid by banks on their deposit accounts does 
not tend to rise as much or as quickly as the yields savers 
earn on alternative savings investments, such as money-market 
mutual funds.
    Of note, average advertised deposit rates are often an 
incomplete indicator of how banks attract and retain customer 
deposits. Presently, the range of rates offered by banks is 
wide, and many banks temporarily offer promotional rates. In 
addition, banks may use alternative methods to compete for 
deposits vis-a-vis other banks and money market mutual funds. 
Such alternative methods of compensating depositors include 
cash incentives, special rates that are not broadly advertised, 
and special offers on other services. We continue to study 
these trends and the ways in which changes in monetary policy 
transmit to the broader economy.

Q.21. Cannabis Banking--As more States begin to legalize 
marijuana, it becomes imperative that Congress act on offering 
financial services for cannabis and cannabis affiliated 
businesses. In its first year of legalization, the State of 
Nevada collected $69.8 million in tax revenue from cannabis 
alone--this figure indicates that there is not an insignificant 
amount of cash that is floating around our financial system.
    Are you able to discuss whether, if any, how a lack of 
financial services for cannabis businesses impacts our monetary 
system?

A.21. We understand that cannabis business may largely be 
conducted via cash transactions. Although the volume (and the 
attendant risk) of cash transactions may be large for any 
individual business, the scale of these businesses relative to 
the scale of the United States economy is quite small. As such, 
any additional cash activity from these businesses does not 
appear to be having any impact on the Federal Reserve's ability 
to provide currency and coin nor on its ability to conduct 
monetary policy.

Q.22. Could you discuss the regulatory burden that this 
prohibition places on federally chartered banks?

A.22. Federal law makes it a Federal crime to possess, grow, or 
distribute marijuana, and prohibits an entity from knowingly 
engaging in a monetary transaction in criminally derived 
property. \4\ Therefore, financial transactions that are 
related to marijuana are defined as money laundering under 
Federal law, even those related to operations that are licensed 
or approved under State law. The conflict between Federal and 
State law has created challenges for marijuana-related 
businesses and banks.
---------------------------------------------------------------------------
     \4\ See the Controlled Substances Act and 18 U.S.C. 1957.
---------------------------------------------------------------------------
    In 2014, the Financial Crimes Enforcement Network (FinCEN) 
issued guidance to ``clarify how financial institutions can 
provide services to marijuana-related businesses (MRBs) 
consistent with their Bank Secrecy Act (BSA) obligations.'' \5\ 
Similar to other BSA guidance, a reference to the 2014 FinCEN 
guidance was incorporated into the FFIEC BSA/AML Examination 
Manual. If there are legislative changes or if FinCEN repeals 
or revises its guidance, the Board, along with the other FFIEC 
agencies, will evaluate whether additional steps would be 
appropriate.
---------------------------------------------------------------------------
     \5\ https://www.fincen.gov/sites/default/files/shared/FIN-2014-
G0011.pdf
---------------------------------------------------------------------------
    Examiners assess whether the bank management has 
implemented controls that are commensurate with the bank's 
risks, and when those risks involve MRBs as customers, 
examiners assess if the bank is complying with FinCEN's 2014 
marijuana guidance, including its suspicious activity report 
filing requirements. In general, examiners determine if the 
bank's controls are commensurate with the risks posed by its 
products, services, and customers. As a general matter, the 
decision to open, close, or decline a particular account or 
relationship is made by a depository institution, without 
involvement by its supervisor.

                               [all]
</pre></body></html>
